<html>
<title> - LEGISLATIVE OPTIONS TO STRENGTHEN HOMELAND DEFENSE</title>
<body><pre>[Senate Hearing 107-212]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-212

           LEGISLATIVE OPTIONS TO STRENGTHEN HOMELAND DEFENSE

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                            OCTOBER 12, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs


76-806              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                       Holly A. Idelson, Counsel
            Michael L. Alexander, Professional Staff Member
         Hannah S. Sistare, Minority Staff Director and Counsel
                    Robert J. Shea, Minority Counsel
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Thompson.............................................     3
    Senator Bennett..............................................     5
    Senator Akaka................................................     6
    Senator Voinovich............................................     7
    Senator Durbin...............................................     8
    Senator Collins..............................................     9
    Senator Levin................................................    33
Prepared opening statements:
    Senator Carnahan.............................................    55
    Senator Bunning..............................................    55

                               WITNESSES
                        Friday, October 12, 2001

Hon. Bob Graham, a U.S. Senator from the State of Florida........     9
Hon. Arlen Specter, a U.S. Senator from the State of Pennsylvania    12
Hon. Bob Smith, a U.S. Senator from the State of New Hampshire...    14
Hon. Wayne T. Gilchrest, a Representative in Congress from the 
  State of Maryland..............................................    16
Hon. Jane Harman, a Representative in Congress from the State of 
  California.....................................................    17
Hon. Mac Thornberry, a Representative in Congress from the State 
  of Texas.......................................................    20
Hon. Lee H. Hamilton, Director, Woodrow Wilson International 
  Center for Scholars............................................    22
General (Ret.) Barry R. McCaffrey, President, B.R. McCaffrey 
  Associates, Inc................................................    25
General Charles G. Boyd, USAF (Ret.), former Executive Director 
  of the U.S. Commission on National Security/21st Century and 
  Current Director of the Washington Office of the Council on 
  Foreign Relations..............................................    28
Stephen E. Flynn, Ph.D., Senior Fellow, National Security 
  Studies, Council on Foreign Relations..........................    30
Thomas H. Stanton, Chair, Standing Panel on Executive 
  Organization and Management, National Academy of Public 
  Administration.................................................    35

                     Alphabetical List of Witnesses

Boyd, General Charles G., USAF (Ret.):
    Testimony....................................................    28
    Prepared statement...........................................   109
Flynn, Stephen E., Ph.D.:
    Testimony....................................................    30
    Prepared statement...........................................   113
Gilchrest, Hon. Wayne T.:
    Testimony....................................................    16
    Prepared statement...........................................    72
Graham, Hon. Bob:
    Testimony....................................................     9
Hamilton, Hon. Lee H.:
    Testimony....................................................    22
    Prepared statement...........................................    87
Harman, Hon. Jane:
    Testimony....................................................    17
    Prepared statement...........................................    79
McCaffrey, General Barry R., (Ret.):
    Testimony....................................................    25
    Prepared statement...........................................    92
Smith, Hon. Bob:
    Testimony....................................................    14
    Prepared statement...........................................    66
Specter, Hon. Arlen:
    Testimony....................................................    12
    Prepared statement...........................................    57
Stanton, Thomas H.:
    Testimony....................................................    35
    Prepared statement with an attachment........................   118
Thornberry, Hon. Mac:
    Testimony....................................................    20
    Prepared statement...........................................    82

                                Appendix

Comptroller General of the U.S. General Accounting Office, August 
  6, 2001, prepared statement (submitted by Senator Graham)......   129
Hon. Dianne Feinstein, a U.S. Senator from the State of 
  California, prepared statement.................................   130
Hon. Jim Gibbons, a Representative in the Congress from the State 
  of Nevada, prepared statement (submitted by Ms. Harman)........   133
Hon. Steven C. LaTourette, Chairman of the U.S. House of 
  Representative's Subcommittee on Economic Development, Public 
  Buildings and Emergency Management, prepared statement.........   134
Ivo H. Daalder, a senior fellow at the Brookings Institution, and 
  I.M. Destler, a Professor at the School of Public Affairs, 
  University of Maryland, prepared statement.....................   138

 
           LEGISLATIVE OPTIONS TO STRENGTHEN HOMELAND DEFENSE

                              ----------                              


                        FRIDAY, OCTOBER 12, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Akaka, Durbin, Dayton, 
Thompson, Collins, Voinovich, and Bennett.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and thank you so much for 
being here at this hearing. Today the Governmental Affairs 
Committee will consider various legislative proposals to 
strengthen homeland security. This is a follow-up to our 
hearing 3 weeks ago that explored the question of whether 
government is adequately organized to meet threats to the 
American homeland.
    The tragic events of September 11 were a shocking and 
painful wake-up call for all Americans, including those of us 
who are privileged to be in public service. The senseless 
deaths of thousands of our fellow citizens at the hands of 
terrorist hijackers hurt and angered our Nation, but I think 
they also forged in us an iron resolve to bring to justice 
those who aided and abetted the terrorists. The attacks also 
underscored our vulnerability to those who would do us ill and 
the failure of the government and the private sector--in this 
case, particularly, the airlines who were responsible for 
security--to prevent those attacks.
    In the weeks that have followed, many reasons have been 
given for this failure. The one which concerns the Governmental 
Affairs Committee, because it is at the heart of our 
jurisdiction, is that our government lacks the appropriate 
structures and mechanisms to adequately carry out the 
responsibility of homeland protection. We, of course, have 
military intelligence, law-enforcement and emergency response 
assets, but they are inadequately organized to guard against 
the kinds of attacks we witnessed last month, and I would say 
also inadequately directed and driven to prevent further 
attacks of that kind. So this morning this Committee will 
consider two--at least two, and to a certain extent, three 
major reorganization proposals that have been introduced in 
Congress to better achieve homeland security and protection 
from terrorism.
    S. 1449, introduced by Senator Graham and others, would 
establish a national office for combating terrorism. This 
proposal would create a statutory White House office with a 
Senate-confirmed director responsible for coordinating 
government-wide terrorism policy. A House bill, sponsored by 
Representatives Gibbons and Harman, would also create a White 
House office with strong budget authority to coordinate 
programs to defend against terrorism and other homeland 
threats.
    The second bill we will look at is S. 1534, a proposal 
introduced yesterday by Senator Specter and myself, that would 
establish a Department of National Homeland Security. Briefly, 
our bill would bring under a single administrative umbrella the 
Federal Emergency Management Agency, the Customs Service, the 
Border Patrol, the Coast Guard and other offices responsible 
for critical infrastructure protection. These agencies would be 
organized into three functional directorates for prevention, 
protection and preparation to respond. The head of the 
department would be a cabinet secretary who would be subject to 
Senate confirmation and thus, accountable to Congress and the 
American people. Like other agency chiefs, he would enjoy 
executive control over personnel and programs, and he would 
have all-important budget authority over his department's 
spending priorities.
    In short, S. 1534 is meant to structure homeland defense in 
a way that makes sense operationally, but also in terms of 
maximizing funding priorities, interagency cooperation, and 
just plain bureaucratic clout. S. 1534 is modeled on the 
recommendation of the so-called Hart-Rudman Commission. A 
nearly identical House bill has been sponsored by 
Representatives Thornberry and Tauscher. I should point out 
that Congressman Thornberry, who is with us today, had the 
foresight to introduce his bill well before the September 11 
attacks.
    These bills stress different aspects of anti-terrorism and 
reorganization and each in its own way, in my opinion, if 
enacted, would have a positive effect on the administration's 
efforts to fight terrorism and protect our citizens, which, of 
course, we all support.
    Governor Tom Ridge, I think, is a terrific choice to head 
the new Office of Homeland Security, but, in my opinion, as 
constituted now, his office does not give him the power he 
needs to ensure that he will get the job of homeland security 
done. His office is not authorized by law. He is not confirmed 
by the Senate. He lacks sufficient budget authority over the 
agencies he will be overseeing and coordinating to make sure 
his priorities, and I would say ours, are their priorities, and 
that his sense of urgency about the job he has, and I would add 
ours, is also a sense of urgency shared by those who will be 
under him. I think we need to create a robust cabinet-level 
agency led by a strong director that has the clout and 
resources to make the homeland security mission work, and that 
is what the legislation Senator Specter and I have introduced 
would do.
    The Committee will also hear from Senator Smith about 
legislation he has offered to create a Domestic Terrorism 
Preparedness Council that would be charged with developing and 
implementing a terrorism preparedness plan. Representative 
Gilchrist has a similar measure pending in the House. So we 
have got a very distinguished set of witnesses on both panels 
today.
    I want to thank them in advance for taking time to be with 
us this morning to share their experience and their counsel, as 
we together, certainly across party lines, try to fashion the 
best structure through which we can get done what is now 
probably the most urgent responsibility our Federal Government 
has, which is to protect the American people from attack here 
on the American homeland. Now let me turn to my colleague and 
friend, the Ranking Member of this Committee, Senator Fred 
Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you, Mr. Chairman, and I certainly 
cannot think of a more timely hearing than this one. There have 
been a lot of excellent proposals put on the table. Yours is 
one of them. We ought to consider them seriously. I want to 
apologize to my staff for an excellent statement that they 
drafted here. I would like to make it a part of the record. It 
just occurred to me a few minutes before we had this hearing, 
that perhaps it would be more beneficial by stating an 
alternative notion or two that focuses on the nature of the 
problem.
    It seems to me that although we certainly do need to look 
at the organizational structure of our effort here, that is 
really not the basis of our problem. I think the real problem 
has been that, for some time now in this town, we have not 
taken this problem seriously. Although we have had many good 
hearings and many excellent admonitions and suggestions over 
the years, the Congress has never really followed up and done 
much about it. We have not had much leadership from the White 
House over the last several years, in taking this problem 
seriously.
    It is not for lack of organization, it seems to me, that we 
are in the trouble that we are in right now. It is lack of 
leadership. It does not matter what kind of organization we 
have if we do not have the right kind of leadership. Without 
leadership, we are not going to be able to address the problem. 
So, if it is also the case, as it appears to me, that this is, 
by its very nature, a decentralized problem, then our tendency 
will be to centralize the problem and the effort and create a 
new, concise entity. We have 40 agencies with responsibility, 
and maybe 40 agencies need responsibility. Maybe the problem is 
so diverse and covers so many different areas that we need all 
of these people involved. If that is the case, if leadership is 
the problem, then what is the solution?
    One of the things we need to seriously consider, as, of 
course, we will, is whether or not we should simply vest the 
authority in the Executive Branch, perhaps reinstitute the 
Reorganization Act, which was used for many, many years to 
reorganize the Federal Government. With this authority, the 
President could reorganize as he saw fit. Authority could be 
given to the Congress on an expedited basis, to say yea or nay. 
This authority would give the President the opportunity to look 
across the spectrum at what all of these agencies are doing 
with all these Congressional committees having all this 
jurisdiction. It might be best to take some time to see how 
this thing really ought to be reorganized before we impose upon 
the new President and his new team some kind of a new 
organizational plan that would involve the changing and perhaps 
even disrupting thousands and thousands of government 
employees. So I would merely suggest that this certainly be in 
the back of our minds, at least, as we look at all of these 
organizational plans.
    Clearly, September 11 has gotten our attention. I think we 
are all encouraged that we are now fulfilling our 
responsibilities and taking this matter very, very seriously. 
We should address it, not only in terms of organization, but in 
terms of budget priorities. We should work with the President 
to come up with the very best solution in order to deal with 
the problem that certainly is at the very top of our agenda and 
a concern to us all.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Thompson follows:]

                 PREPARED STATEMENT OF SENATOR THOMPSON

    Thank you Mr. Chairman.
    There have been other times of great crisis in our country. Few of 
these, however, caught us with such an inadequate organizational 
structure and the urgency to build a new one has never been greater. 
Many distinguished panels and experienced public servants informed us 
that the government's efforts to prevent, deter, and respond to 
terrorism were fragmented and uncoordinated; by and large we failed to 
heed that advice. We hesitated due to the big changes they called for 
and sometimes because there were more important priorities. But these 
reasons are, for all practical purposes, immaterial. What we are left 
with now are decisions we cannot avoid and actions that we must take.
    Previously, there were questions that could not be asked. Those 
questions must be asked now. Previously, there were programs that could 
not be touched. Those programs must be examined and, if necessary, 
changed and moved. Previously, there were agencies that put 
counterterrorism on the back burner. Obviously, it must now be a prime 
concern.
    However, we should not and cannot reorganize for the sake of 
reorganizing, and that is what I caution against now. I believe that 
hasty action leads us down the dangerous path towards the illusion of 
security, which is more dangerous than having no security at all.
    I believe that there are a number of questions that must be asked 
and answered before we can even begin. What is the problem we are 
trying to fix? The outcome we want--freedom from terror--is clear, but 
a definition of the problem is lacking. Was it a specific agency that 
failed to do its job? Several agencies? Was the problem that we didn't 
plan adequately for those who are willing to die in the commission of 
terrorist acts? The problem must inform our solution, not the other way 
around. And at this point, I don't believe anyone has clearly 
articulated what it is we're trying to solve.
    Whatever our decision is, it clearly must be able to stand the test 
of time. We want to ensure that a year from now, five years from now, 
when the exigency of the moment has passed and when the new Director of 
Homeland Security does not possess the forceful personality of Governor 
Ridge, that counterterrorism efforts are coordinated and urgent.
    If deep organizational change is needed--and as I have said, it may 
be--then why not let it come from the President? I suggest that what 
might serve us well is the Reorganization Act. This important 
legislation was born in the Great Depression, another time when a 
departure from conventional thinking was called for. We here in the 
Congress would not be giving up our role in the policy process, since 
both houses would still have to affirm any measure before it became 
law. Rather, we would allow the President to assess where the 
weaknesses in the system are and to act quickly to fix them.
    Mr. Chairman, that concludes my remarks. I look forward to hearing 
what our distinguished witnesses have to say.

    Chairman Lieberman. Thank you, Senator Thompson, for that 
thoughtful statement. Normally, we would go to the witnesses. I 
wonder, in light of the importance of the hearing, whether any 
of my colleagues would like to make a brief opening statement?
    Senator Bennett.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Yes, thank you, Mr. Chairman. If I could 
just make a personal statement here, quoting the historic Yogi 
Berra, ``Deja vu all over again.'' I entered the Executive 
Branch in the first of the Nixon Administration in 1969 at the 
Department of Transportation. The Department of Transportation, 
which is now stable and part of our government structure, was 
formed in much the same manner that your bill and Senator 
Specter's bill is proposing here, with respect to this new 
department.
    It took the FAA, which was an independent agency, the Urban 
Mass Transit Administration, which was part of HUD, the Federal 
Highway Administration, which was in Commerce, the Coast Guard, 
which was in Treasury, the St. Lawrence Seaway, and I have 
forgotten where it was, and the Federal Rail Administration 
that was created de novo to be part of this Department of 
Transportation--and all this was done in the Johnson 
Administration, and the Department was 18 months old when 
President Nixon was elected, and I was part of the team that 
went in to take over that Department.
    I saw firsthand, 18 months after the formation of the 
Department, how badly it was struggling to come together and 
how difficult those 18 months were. In the next 2 years, in 
which I was privileged to serve in the Department under the 
leadership of Secretary Volpe, we struggled mightily just to 
pull the thing together and make it work. It was one of the 
most difficult, exhilarating, educational management 
experiences of my young life, to go through that. I just want 
to sound a note of caution, having been through that 
experience, that the idea of pulling together a group of 
existing agencies, ripping them out of the roots that they have 
established in the departments where they exist, and then 
putting them together on what looks like a very clean piece of 
paper, in terms of an organizational chart, is a very difficult 
reality to deal with in terms of the way the structure is 
built.
    Having said that, I applaud you and Senator Specter for 
your bill, because we probably need to get someplace like this 
as quickly as we can, and we therefore need to start. But my 
only cautionary note, as we do start, is to recognize that this 
is not going to come together very quickly. We have the 
National Security Council, which was created in 1947, after the 
Second World War. We went through the Second World War with the 
pressures of the war leaving the disparate parts scattered all 
over the government, because we did not want to try to disrupt 
what they were doing to force an additional organizational 
circumstance. So, I thank you for your indulgence.
    I simply want to sound that note of caution as we proceed 
down this road. I again reiterate my congratulations to you for 
getting us started down the road, because we should not let the 
caution tell us the task is so daunting we will not even begin 
it. I wanted to share that personal reaction as I looked at 
this, because it did stir up memories that are now over 30 
years old, in my own experience.
    Chairman Lieberman. Thanks, Senator Bennett. That is a very 
instructive comment, and I presume most people agree that your 
words are not only realistic and wise, but that the effort was 
ultimately worth it in terms of what was produced.
    Senator Bennett. That is correct.
    Chairman Lieberman. The reassuring reality here is that the 
President has acted quickly, created the office, has Governor 
Ridge in it. So something is happening now, even as we consider 
whether there are better ways to do it that we can build on.
    Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Mr. Chairman, I want to commend you and 
thank you for calling this hearing, and also to take the time 
to welcome our friends and our colleagues to this hearing. Even 
before the tragedy of last month, our leadership has looked for 
ways to strengthen our defense, and, Mr. Chairman, at this 
point, I want to include my whole statement, but I will make 
some brief remarks here.
    Chairman Lieberman. Without objection, it will be included 
in the record.
    [The prepared statement of Senator Akaka follows:]

                  PREPARED STATEMENT OF SENATOR AKAKA

    Good morning. I commend the Chairman for calling this hearing and 
thank our witnesses for being with us today.
    Even before the tragic events of last month, we have looked for 
ways to strengthen homeland defense. A threat that was once seen as a 
problem of the future has sadly become a present day reality. The 
question remains: How can we best prevent, protect, and respond to 
threats on our homeland while preserving the freedoms that define 
America?
    We should also be mindful that future threats may not take the same 
form of those a month ago. In July, the Subcommittee on International 
Security, Proliferation and Federal Services, which I chair, held a 
hearing on FEMA's role in managing a bioterrorist attack. That hearing 
made it clear that the United States lacked a national security 
strategy and the institutional organization to address terrorist 
attacks.
    Any strategy should address the fact that such future attacks will 
affect regions of our country differently. There is no one type fits 
all strategy. Geographically isolated or remote states like Hawaii or 
rural areas will require different response strategies and resources 
than New York City or the Washington, D.C. region.
    Our ability to address this issue will depend on the organization 
and coordination of our resources, the strategy we employ, and 
communication among federal, state, and local governments. Chairman 
Lieberman has proposed creating a Department of National Homeland 
Security. President Bush suggests a less formal approach. Whatever 
choice is made, we must ensure our strategy and organization maximizes 
the talents of those charged with homeland security and the resources 
needed to address any threat.
    I look forward to your proposals and thank you again for being with 
us.

    Senator Akaka. What was once seen as a problem of the 
future has sadly become the present-day reality. The question 
remains: How can we best prevent, protect and respond to 
threats on our homeland while preserving the freedoms that 
define America?
    In July, the Subcommittee on International Security, 
Proliferation and Federal Services, which I Chair, held a 
hearing on FEMA's role in managing a bioterrorist attack. It 
became clear at the time that we lack a national security 
strategy and an institutional organization to address the 
terrorist attacks. We must ensure our strategy and organize and 
maximize the talents of those charged with homeland security, 
and that is what we are trying to do.
    So I want to thank you, Mr. Chairman, and wish all of us 
well and hope we are able to define our strategy and our work.
    Thank you.
    Chairman Lieberman. Thanks, Senator Akaka. Thanks for your 
Subcommittee's leadership in that area, too.
    Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. I would like to 
thank you for holding this hearing on legislative options to 
strengthen our homeland defense, and I want to welcome our 
panels of witnesses.
    Mr. Chairman, during the waning years of the Cold War, in 
the decade since its conclusion, Congress and previous 
administrations have commissioned study after study on the 
preparedness level of the Federal Government in the face of a 
terrorist attack on the United States of America. In the 
aftermath of last month's acts of terrorism on our homeland, 
the spotlight has shone on the important role our Federal 
agencies, and the individuals who work for them, play in the 
defense of our Nation. It is amazing to me that a crisis has to 
occur before we begin taking action on something as serious as 
making sure we have the proper structure and personnel in place 
to guarantee our national security.
    However, let me say that although Congress has not yet made 
a decision on the type of homeland security office we might 
create, if we create one at all, I am impressed with the 
deliberate and prompt action President Bush has undertaken 
within the past few weeks to create an Office of Homeland 
Security. I believe it is important that, as Congress evaluates 
options for building upon that new office, we seriously 
consider the input of the Executive Branch in structuring our 
agencies in a manner that the administration deems most 
effective.
    Maybe I have been an administrator too long--10 years as 
mayor and 8 years as governor, but I wonder: Has the 
administration been heard from in regard to how they want to 
organize and deal with the problem? They are the ones that are 
going to be charged with that responsibility, and they ought to 
determine the best way to respond, in my opinion, to the 
problem that we have.
    Mr. Chairman, only months ago the Hart-Rudman Commission 
released its final report on the national security posture of 
our Nation. One of the Commission's findings said, ``Attacks 
against American citizens on American soil, possibly causing 
heavy casualties, are likely over the next quarter century.'' 
Now, that is eerie in its foresight. Another finding of the 
Commission was that, ``The United States finds itself on the 
brink of an unprecedented crisis of competence in Government,'' 
and that, ``The maintenance of American power in the world 
depends on the quality of U.S. Government personnel, civil, 
military, and at all levels.''
    This Committee is considering restructuring the Federal 
Government to ensure that our Nation is prepared to respond to 
future attacks. As we do, we should resolve to take action on 
the Commission's prediction about the state of the Federal 
Government's human capital and our Nation's preeminence in the 
world, and ensure that we correct the situation before it gets 
worse. For example, right now we know that we are out on the 
Internet advertising for people that can speak Arabic and other 
languages. We are just not prepared for this situation today.
    I think you know, Mr. Chairman, I am preparing to introduce 
legislation that will address this human capital crisis, and I 
urge my colleagues to keep in mind the important role that 
Federal employees play in protecting the American people. As 
former Secretary of Defense James Schlesinger said when he 
testified before our Oversight of Government Management, 
Restructuring and the District of Columbia Subcommittee, in 
March, ``Fixing the personnel problem is a precondition for 
fixing virtually everything else that needs repair in the 
institutional edifice of the U.S. national security policy.'' I 
would agree with that assessment. We have all kinds of agencies 
we can restructure, but it is the quality of the people that we 
have in those agencies that are really going to make the 
difference. If you have good people--although you may not have 
the best structure--and they can effectively coordinate their 
activities, there is a lot that can be accomplished.
    I think we have seen that so far. We have a crisis. The 
President has brought them together. We have seen cooperation 
around here like we have not seen in anyone's memory. Turf 
battles have kind of disappeared because we have a crisis. So, 
as I said, Mr. Chairman, as we consider the structure, let's 
try to make sure we get input from the administration on how 
they think this should be organized, and let's also pay 
attention to the fact that we need to deal with the human 
capital crisis.
    Chairman Lieberman. Thanks, Senator Voinovich. Let me just 
indicate for the record and reassure you that we invited the 
administration to testify this morning. They chose not to, but 
they did say that Governor Ridge would be happy to meet with 
the Committee in session to discuss his attitude toward the 
various proposals here.
    Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you, Mr. Chairman. Thank you for this 
hearing. Several years ago I read an interesting biography of 
George Marshall. When the storm clouds were gathering over 
Europe, Franklin Roosevelt went to General Marshall and asked 
him to take a look at the military capacity of the United 
States, long before Pearl Harbor. When General Marshall arrived 
at the War Department he found that we had a token military at 
best that had been decommissioned after World War I and never 
really activated in the intervening time.
    He asked if there were any battle plans that were 
available. They went to the vault and pulled out the one 
contingency which they had prepared for. It was the invasion of 
Mexico. Within a short period of time, Pearl Harbor occurred, 
America was at war, and in a matter of several years we took 
that decimated, almost non-existent military force and turned 
it into a military force that literally saved the world. You 
have to ask yourself, in that period of time, what happened, 
and I think we can reflect on several things that happened: 
First, strong leadership at every level, from the President on 
down; second, bipartisanship, as Senator Voinovich has said, 
that we have seen clear evidence of in the last few weeks here 
on Capitol Hill, a national cause that rallied the best and 
brightest who wanted to be part of saving America and winning 
the war, and a sense of purpose and urgency that managed to 
break through the bureaucracy and all of the problems of the 
past.
    We now have lived through September 11, and the question is 
whether or not we can rally this same strength and this same 
sense of purpose. I think the President has chosen an 
extraordinary person to lead that in Governor Tom Ridge. It has 
been my pleasure to call him a friend and fellow congressman 
since we were both elected in 1982, but the question is whether 
or not Congress and the President and all of us as a people 
will stand behind him with that same sense of purpose as he 
puts together this critically-important agency. There will be 
many good ideas. In the end, we must rally behind the best and 
make certain it works. Thank you.
    Chairman Lieberman. Thank you, Senator Durbin.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Mr. Chairman, I want to thank you for your 
leadership and for holding this hearing. We have an impressive 
first panel of distinguished witnesses who have been waiting 
for a half-hour to share their wisdom with us, so I am going to 
forego my opening comments and listen to their testimony.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins. You are 
right about the panel of witnesses. I am grateful that they are 
here. We have three colleagues in the Senate, and three 
colleagues from the House. I had not thought of it before, but 
I note as I look, in true human indication and evidence of non-
partisanship, four of our colleagues are Republicans and only 
two are Democrats.
    How did that happen, Fred? [Laughter.]
    With Senator Graham's indulgence, I know Senator Specter 
has to return to Pennsylvania. I am going to ask him to go 
first, if you would.
    Senator Specter. Thank you very much, Mr. Chairman. I had 
negotiated with Senator Graham priority. We are swearing in a 
U.S. Attorney this afternoon in Philadelphia, but then he told 
me about his plane, so I am going to defer to Senator Graham. 
He has to leave at 10:30 a.m., so his statement will not be too 
long. [Laughter.]

TESTIMONY OF HON. BOB GRAHAM, A U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Graham. Thank you very much, Senator, and after 
that it will be shorter than it would have otherwise been.
    Mr. Chairman, I appreciate this opportunity to testify 
before your panel on the legislation that has been introduced 
on the Office of Homeland Security. Let me say from the outset, 
and particularly in response to some of the comments by Senator 
Voinovich, I could not agree more that this needs to be an 
effort in which there is the highest level of cooperation, 
collaboration and respect between the Executive and Legislative 
Branches. This work is too important for it to be treated in 
any other manner.
    I see that our efforts here today and the efforts that led 
to the legislation that has been introduced are all intended to 
complement, both in the sense of expressing our appreciation 
for, as well as to join in an effective partnership with, the 
administration. After several months of research on the day 
after the President announced his selection of Governor Ridge, 
along with Senator Dianne Feinstein and others, I filed a bill 
entitled the National Office for Combatting Terrorism, which 
would establish an office in the White House with that as its 
objective.
    After 9 years on the Intelligence Committee, I am acutely 
aware of the need for a centralized authority to coordinate our 
counterterrorism efforts. Many studies, including some that 
have been referenced this morning, have brought before us the 
urgency of such coordination. As one example, the General 
Accounting Office has identified that there is a wide range of 
agencies, from the CIA to the FBI, from the FAA to the Federal 
Emergency Management Agency, which have part of this 
responsibility, yet there is no single individual in charge of 
these efforts. The GAO concluded just last month, ``Key 
interagency functions are resident in several different 
organizations, resulting in fragmented leadership and 
coordination. These circumstances hinder unity of effort and 
limit accountability.''
    In other words, I would analogize our situation to a team 
which has a number of talented athletes, but no head coach to 
bring their efforts together behind a single plan. We must have 
a leader who can command action when the inevitable interagency 
rivalries occur. The White House appointment of Governor Ridge 
is a recognition of this requirement, and I am grateful that a 
man of such talent has accepted this position, but I am deeply 
concerned that the Governor cannot do all that the President 
intends for him to do, even though the executive order of 
October 8 is filled with strong language, including directives 
that the office, ``shall work with executive departments and 
agencies,'' and, ``shall identify priorities and coordinate 
efforts.'' Nor should the homeland security of America have to 
depend upon the occupant of the office's personal ties with the 
President.
    If you want an example of the fragility of that, I would 
suggest that you might do some research on the first person who 
held the term ``Czar'' in American history, Harold Ickes, when 
he was given that title of Czar of Petroleum during World War 
II, and how much his effectiveness waned when his relationship 
on a personal level with the President of the United States 
took a downward slide. Frankly, I do not believe that the 
director of the Office of Homeland Security will have the clout 
that he or she needs to perform these essential tasks without 
gaining the power that would be granted through a permanent 
statutory position. Foremost among these powers, he needs 
budget authority, which only the Congress can convey.
    Without the ability to tell an agency director that his 
budget priorities are misplaced or order the elimination of 
redundant functions from agency budgets, I do not believe that 
Governor Ridge will be able to implement an effective 
counterterrorism strategy.
    I also believe the director of this office should be 
confirmed by the Senate. Confirmation would ensure his 
accountability to both the Congress and the American people, 
and I would ask to have entered in the record a statement by 
the Director of the General Accounting Office on some of the 
issues that are likely to be raised in terms of the 
accountability that comes only through Senate confirmation.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of the Comptroller General of the U.S. 
General Accounting Office, August 6, 2001, appears in the Appendix on 
page 129.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection.
    Senator Graham. The Congress cannot afford such resistance 
when it comes to the battle against terrorism. Mr. Chairman, 
your Committee, the Intelligence Committee and others, must 
fulfill our important oversight responsibilities with the 
Office of Homeland Security. While there clearly were 
intelligence and law-enforcement failures in the days and weeks 
leading up to the horrific events of September 11, it is too 
soon to say where those gaps in our safety net occurred. It is 
not too soon, however, to commit that we will empower a new 
leader, a new leader whose mission will be to close those gaps.
    I have promised hearings before the Intelligence Committee 
when the time is right, and I do not want to encounter any 
roadblocks in getting the information that we will need.
    In closing, let me repeat, as I have told the Vice 
President and the head of the National Security Agency and 
others in the administration, we have no intention of 
undermining the President's plans for his Office of Homeland 
Security. We seek to give the office the authority it needs to 
carry out its extremely important functions. We believe that 
clear lines of authority must be established so that our war on 
terrorism can be successful, all the way from the collection of 
intelligence overseas to the ultimate victory, through 
eliminating the scourge of global terrorism.
    Also, Mr. Chairman, I would like to say that I am familiar 
with the provisions of the bill that you have introduced, which 
would consolidate a number of agencies. I applaud those goals, 
especially relating to better protection of our borders. Your 
legislation is consistent with the approach that Senator 
Feinstein and I have taken in S. 1449, and we look forward to 
working with you to merge our proposals into the most effective 
homeland defense for America.
    Mr. Chairman, the challenge that we face today is not a new 
one for America. We have been challenged many times in our 
national history. I was moved by rereading the words of one of 
our greatest leaders at one of our times of greatest challenge. 
In his second address to the Congress, on Feb. 1, 1862, 
President Abraham Lincoln gave these directions to the American 
people: ``The dogmas of the quiet past are inadequate to the 
stormy present. The occasion is piled high with difficulty, and 
we must rise with the occasion. As our case is new, so must we 
think anew and act anew. We must disenthrall ourselves, and 
then we will save our country.''
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Graham, for an 
excellent statement. Let me just very briefly respond to what 
you said at the end about your proposal and ours not being 
mutually exclusive or inconsistent. I agree with you that it is 
quite conceivable that we could take some of the offices and 
agencies of government, specifically involved in homeland 
security, border control, etc., put them together under a 
strong director, and that would be one element under an overall 
coordinator of counterterrorism in the White House. So I look 
forward to working with you and seeing whether it is possible 
to mesh the two proposals.
    Senator Graham. Thank you very much, and thank you for your 
courtesy in allowing me to go first, and I hope that you will 
make your appointment with the new U.S. Attorney in 
Philadelphia.
    Chairman Lieberman. Thanks, Bob. Have a safe trip.
    Senator Specter. Senator Graham, riding Amtrak is a lot 
better than flying to Florida; we have a lot more conveyances 
leaving. However, your schedule is more urgent than mine, so I 
am glad to have deferred to you.

  TESTIMONY OF HON. ARLEN SPECTER,\1\ A U.S. SENATOR FROM THE 
                     STATE OF PENNSYLVANIA

    Senator Specter. Mr. Chairman and Members of this 
distinguished Committee, I ask unanimous consent that the full 
text of the lengthy statement be included in the record, and I 
will summarize as briefly as I can, in light of the many 
witnesses you have today on this important subject.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Specter appears in the 
Appendix on page 57.
---------------------------------------------------------------------------
    Chairman Lieberman. It will be printed in the record, of 
course.
    Senator Specter. We have had numerous studies, and it is 
time for action on reorganization. I am pleased to have worked 
with you, Mr. Chairman, on S. 1534, which represents our best 
thinking as of the moment, and I am pleased to see our 
colleagues in both the House and the Senate with other 
legislative proposals, and I know from my 4 years on this 
Committee, that this is the place to amalgamate these bills and 
face up to the needs and produce a finished product.
    My view is that the government is much too proliferated and 
diverse, and I came to that when I chaired the Intelligence 
Committee in 1995 and 1996 and looked at the issue of weapons 
of mass destruction, and found some 96 separate agencies, many 
of them overlapping, notwithstanding the overlaps, many gaps, 
and no centralized authority. In the Intelligence Act of 1996, 
a provision was legislated to create a commission which was 
chaired by former CIA Director John Deutch, and I served as the 
vice chairman. We found that the turf battles were just 
furious, just extraordinary, and after a lot of hearings and a 
lot of witnesses and a lot of deliberation, we concluded that 
really the only person who could handle it, next to the 
President, would be the Vice President, and that was the 
recommendation of our commission, with consolidated lines of 
authority.
    Today, it is unrealistic to give the Vice President any 
more duties, we just cannot do that. We have had the action by 
the President through an executive order, which was exactly 
right, because he needed to act immediately. Legislation takes 
time, so President Bush has pursued the first steps in 
appointing Governor Tom Ridge, a man whom I obviously know very 
well. We are fellow Pennsylvanians, working practically every 
day for the past 20 years or more, when he was in the House and 
when he served ably as Governor. When Governor Ridge was asked 
about his role, he said, ``Well, people can say no to me, but 
they cannot say no to the President.''
    Now, that is true, but every time there is a dispute the 
President cannot conceivably intervene, and we are dealing with 
an office which has to be institutionalized. In the future 
there may be another person in Governor Ridge's position. There 
may be another person President of the United States and the 
personal relationship may not exist, and that is the role of 
the Congress and the role of this Committee, which is the 
extensive experience this Committee has had.
    You have outlined already the provisions of S. 1534, so I 
shall not duplicate them. When we get to the end of the rainbow 
on homeland security, we still have a big issue of coordination 
of our intelligence operations. My 8 years on the Senate 
Intelligence Committee and chairing the Judiciary Subcommittee 
on Terrorism has left me in a state of wonderment as really 
what to do with the intelligence agencies. I have found, I am 
sorry to say, that the agents in the Central Intelligence 
Agency do not tell the Director what is going on, and I could 
be very specific, but we would have to go into closed session.
    I have found the battles within the FBI and the culture 
there more secretive than is imaginable. Within those agencies, 
somehow someone has got to take charge, and it is an ongoing 
battle, and then it is a problem of trying to find 
coordination. We had a hearing before this Committee, jointly 
with the Intelligence Committee, in 1997, and we needed some 
important information. Senator Bennett had sought some 
information from the FBI and they told him they did not have 
the information, but then he found out from the CIA that the 
FBI had the information. The FBI said they could not find it, 
but the CIA found it, having been told by the FBI, but nobody 
would tell Senator Bennett. I do not know why they would not 
tell you, Senator Bennett, but they would not and they would 
not tell this Committee.
    My red light is on, so I will conclude within 30 seconds. 
At the end of the rainbow on homeland security, I suggest that 
this Committee and the Congress has to figure out a way to stop 
the intelligence gaps. We have a very nervous America. The 
overhang on this country today is just extraordinary, and 
fortunately we passed two pieces of legislation yesterday, 
airport security and the terrorism bill, which, as I said on 
the floor last night, we should have done 2 weeks ago. However, 
we are going to have to tackle this intelligence issue. It is 
just unfathomable that when you have the FBI putting a man on a 
Watch List, he still can get on a airplane and turn a 
commercial airline into a bullet to topple one of America's 
great buildings. So, the job is difficult, and I am sure this 
Committee is up to getting it started, and the Senate and the 
Congress will finish it up. Thank you very much.
    Chairman Lieberman. Thank you, Senator Specter, for a 
thoughtful and very direct statement. I could not agree with 
you more. As you look back to what led up to the attacks on 
September 11, it is hard not to conclude that part of our 
vulnerability came from the unwillingness or inability of 
various agents or just the incapacity of the various agencies 
in our government to work together and share information. That 
is an intolerable, unacceptable condition, which if this 
Committee can play a part in avoiding in the future, we will 
try very hard to do. Thanks for your statement.
    Senator Specter. Thank you.
    Chairman Lieberman. Senator Smith, welcome.

 TESTIMONY OF HON. BOB SMITH,\1\ A U.S. SENATOR FROM THE STATE 
                        OF NEW HAMPSHIRE

    Senator Smith. Thank you, Mr. Chairman, and thank you for 
holding this hearing. As I was listening to Senator Graham read 
yet another great quote from Abraham Lincoln, I was reminded of 
the fact that I might remind our staffs and all of us that 
Lincoln wrote his own speeches, and look how long they have 
been remembered.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Smith appears in the Appendix 
on page 66.
---------------------------------------------------------------------------
    Chairman Lieberman. They also tended to be shorter than 
ours.
    Senator Smith. Much shorter. Mr. Chairman, I have a formal 
statement for the record and I would ask unanimous consent that 
be placed in the record.
    Chairman Lieberman. It will be.
    Senator Smith. I appreciate, again, the opportunity to come 
here and be heard, and I will say right up front that although 
I do have a piece of legislation, S. 1453, which is a companion 
to my friend's--Representative Gilchrist's--legislation in the 
House, I do not believe that is a silver bullet. I think we all 
need to work together. I hope, as Senator Specter said, that 
whatever we come up with will be the right product. Congress 
tends to be a reactionary body. We have had a very serious 
national calamity and we need to respond to it quickly, and 
hopefully pride of authorship will not get in the way of doing 
that. So I look forward to just offering my views on a couple 
of issues.
    As the former chairman and now ranking member of the 
Environment and Public Works Committee, of which you are a 
member, Mr. Chairman, you know that we have been involved in 
terrorism preparedness, and FEMA is part of our oversight. So I 
am going to try to speak to that point.
    The very first meeting I had with Joe Allbaugh when he came 
to us before his confirmation--the topic of discussion in most 
of the meeting was terrorism. He was very concerned about it 
then and that concern turned out to be very prophetic. The 
consequence management or the preparation to respond after the 
disaster is the issue that I want to focus on, because it is a 
very complicated puzzle.
    I also want to congratulate my colleague, Congressman 
Gilchrist, for his leadership in the House on essentially the 
same legislation. Senator Thompson, you made a point about the 
numbers and departments and agencies out there. There are 140, 
at least, Federal departments and at least 100 separate Federal 
terrorism preparedness training courses, and that is just at 
the Federal level. When we go to the local level and the State 
level and there are dozens, if not hundreds, more. You made a 
point of whether or not there is enough--maybe we need them 
all. I do not think it is a question of whether we need them as 
much as it is, as you said, who is going to coordinate them to 
make sure they all work together.
    There is no coordinated national leadership or strategy 
right now. We do have Federal programs that overlap. They are 
fragmented, they are redundant and they are confusing, and they 
waste resources and time. That is what we need to correct. That 
is not to say that this Nation does not have the tools to 
effectively respond, because we do and we have, but we do lack 
strategy and coordination. The great leadership of Mayor 
Giuliani in New York carried that crisis through. Similarly 
with the Pentagon. We had plenty of people right here on the 
ground to see that it worked well, but that may not always be 
the case as we look around other areas of the country where 
something else could happen.
    The question is how do we coordinate with the State and 
local emergency responders? They are going to be the first ones 
on the scene. They would be the first ones there. So, 
basically, our bill expands the Stafford Act.
    It expands the definition of hazard to include a terrorist 
attack involving a weapon of mass destruction, such as an 
aircraft, and it is my intent to broaden that even more to 
include any man-made disaster, as opposed to a natural 
disaster. I will not go into all the things that we do to 
create an Office of National Preparedness. This, of course, was 
drafted prior to the announcement by the President of Governor 
Ridge's role, and obviously we would be looking at melding that 
together, whether you call it the Office of National 
Preparedness or Homeland Security, whatever it is, we are more 
than happy to work with Governor Ridge on that.
    We will fully integrate State and local emergency first 
responders into a national strategy. You think about these 
fireman and policemen that got on that scene. They were the 
first ones there and they suffered the most severe consequences 
with a tremendous loss of life. So I cannot stress enough how 
important coordination is with those State and local officials 
as the tragedy plays out. The current vice chairman of the 
Terrorist Task Force of the National Energy Emergency Managers 
Association, Woody Fogg, is from New Hampshire, and he has 
pointed that out very effectively.
    I would just conclude, Mr. Chairman, if you look back at 
the tremendous job that Jamie Lee Witt did at FEMA, and Mr. 
Allbaugh had to jump into the harness quite quickly with big 
shoes to fill, but he has done a great job--I just want to 
reiterate that we need to work together quickly and effectively 
to do the right thing to make sure that all these agencies do 
coordinate and that we do have leadership, as Senator Thompson 
said.
    I look forward to working with all of you in any way I can 
to make that happen. I am not here to say it is my way or no 
way; I am here to say I am ready to help any way I can.
    Chairman Lieberman. Thanks very much, Senator Smith, for 
the substance of what you said and the spirit in which it was 
given. I agree that is just the way we have to go forward. You 
make a very strong point about the role of State and local 
officials as first responders, both in what happened on 
September 11, and, of course, as we know, focusing on public 
concerns and our concerns about bioterrorism or chemical 
terrorism. There, too, State and local law enforcement, rescue 
officials and public health officials will be the first line of 
response. So we need to work closely with them. Thanks for your 
testimony.
    Congressman Gilchrist, thank you for coming across the Hill 
and giving us your time and wisdom this morning.

 TESTIMONY OF HON. WAYNE T. GILCHREST,\1\ A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Yes sir. Thank you, Senator Lieberman. It is 
a pleasure to walk across to the Senate side and see our 
counterparts on this, who are all focused on doing what is best 
for the Nation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gilchrest appears in the Appendix 
on page 72.
---------------------------------------------------------------------------
    Our bill essentially is--H.R. 525 is essentially the same 
bill that Senator Smith has introduced on this side. There has 
been a great deal of discussion this morning about the myriad 
of departments and agencies that deal, for the most part, quite 
effectively with crisis management and recovery after a crisis 
has occurred. But, as Senator Durbin mentioned, we were in a 
new age at the beginning of World War II. We transitioned out 
of a very different time frame, and I might add that 60 years 
ago, during that time frame, to give another quote from a 
famous American, Franklin Roosevelt said, ``This generation has 
a rendezvous with destiny.''
    I think there is a sense in this Nation, and perhaps around 
the world, that there is a new age that has dawned, a new age 
of fear and crisis, certainly in many parts of the World, 
including the United States, but there is a new sense of unity, 
of cooperation, that we truly are all on this same little blue 
planet together. The ability to communicate and effectively 
deal with international problems will require, as Senator 
Thompson said, effective, knowledgeable leadership to pull 
these disparate interest groups together.
    How do we respond in a very organized way when we are 
dealing with 40 or 90 different departments, agencies, 
whatever, knowing that each of those departments and each of 
the agencies has skill, expertise and knowledge that we do not 
want to disrupt, we only want to direct? I think if we can 
create an almost invisible structure, but a structure that will 
not uproot the expertise and knowledge in these various 
agencies and departments, and yet direct them in a manner that 
we have never done before, we will be successful.
    I feel that to a large extent, having worked with the 
administration for many months, Mr. Allbaugh and FEMA, that we 
have, to a large extent, mirrored what the President wants to 
do in this particular arena. I read a book some time ago, 
called ``Conciliance.'' It was written by E.O. Wilson, a 
Harvard zoologist. Conciliance is the unity of knowledge. That 
is the definition of that word. E.O. Wilson said, ``In this new 
time, in order for the human race to be effective, there has to 
be an understanding and a direction from all the disparate, all 
the diversity that we have, in the same direction.'' So what 
our bill attempts to do, and I am going to boil it down to just 
a simple structure, but I would ask that my entire statement be 
submitted to the record.
    Chairman Lieberman. It will be.
    Mr. Gilchrest. We are looking for leadership and direction 
to quell the bureaucratic bickering that sometimes occurs in 
the Federal Government. The direction needs to come from the 
President. So in our bill we make the President, for all 
intents and purposes, the board of directors. The board of 
directors would include a council, and the council includes 
anywhere from the Department of Transportation to the 
Department of the Treasury, to OMB to the FBI, the CIA, EPA, 
Department of Agriculture, etc. Those people would meet, we 
suggest, no fewer than two times a year. The chief executive 
officer underneath that board of directors would be someone 
like Tom Ridge, and Tom Ridge would have his own staff that 
would help direct the board of directors.
    Now, I think the important part of this is to bring--to 
quote E.O. Wilson's book again, ``To bring human beings 
together, to exchange information, there is no more complex 
phenomenon in the known universe.'' Wilson says that the human 
brain is the most complex organism in the known universe, and 
the most effective way to exchange information, to understand 
the nature of a problem, to come up with a solution to that 
problem and to be effective in real-time, is to exchange 
information between people. So the people from these different 
agencies and departments would meet and exchange that 
information, coordinate that information, to be effective on 
the ground. So the person who picks up the telephone and calls 
911, the person that answers that emergency call, will know 
exactly what to do.
    Now, New York, one of the best cities in the country to 
respond to these disasters, did an extraordinary job. But would 
Hartford, Connecticut have this same expertise? Would 
Chattanooga, Tennessee have the same expertise? Would Buffalo, 
Wyoming have the same expertise? What we want to do is draw the 
Nation together in the same direction without creating any more 
bureaucracy, but tap the skill, the expertise and the knowledge 
from what we have right now. Thank you.
    Chairman Lieberman. Thank you, Congressman. I must say I am 
grateful for the contribution that our colleagues have made 
today and I am sure that high level will continue with the 
final two.
    Congresswoman Harman, thanks for being here. I have been 
long interested in national security matters. I know you are on 
the new committee created in the House, I believe vice chair on 
the new Committee on Terrorism. We look forward to your 
testimony now.

TESTIMONY OF HON. JANE HARMAN,\1\ A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman. It is a pleasure to 
appear before you and your many colleagues, some former 
colleagues of mine in the House, and to be on a panel with 
people very thoughtful about these issues, and to sit anywhere 
near my good friend, Lee Hamilton, whom we all miss in the 
House.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Harman appears in the Appendix on 
page 79.
---------------------------------------------------------------------------
    This is a subject that, as you say, has long interested me. 
I served on the House Intelligence Committee in my prior 
service in Congress. During my sabbatical from Congress I 
served on the Congressionally-mandated National Commission on 
Terrorism. One of the members of that commission is now at the 
NSC as the military aide to the President on counterterrorism 
issues, and I think we made some very valuable recommendations 
there. Now I am back, as you pointed out, as ranking member of 
the new House Intelligence Subcommittee on Terrorism and 
Homeland Security, which has been named by our Majority Leader 
and Minority Leader as the focal point of homeland security 
activity in the House. It is a high honor to do that and to be 
here and to promote legislation which I believe is 
complementary to the other bills pending and I believe should 
be part of the package that we move in the House and the Senate 
as quickly as possible.
    I would just suggest to you that one opportunity in the 
Senate to move at least the piece I am about to address would 
be as an amendment to the Senate Intelligence Authorization 
Bill, which I know will be coming up here very soon. It could 
also be incorporated in whatever package your Committee 
reports, but there is an opportunity, I believe, within the 
next week or so to start, at least, with part one of the reform 
package.
    Mr. Chairman, in President Bush's compelling speech to the 
Nation last Sunday, as we launched air strikes over 
Afghanistan, he told our young men and women heading into 
harm's way, ``Your mission is clear, your cause is just, and 
you will have all the tools you need.'' That spirit of careful 
and effective organization and planning, that attention to 
detail, I believe, drives the most effective military strategy 
ever launched by our country. But that kind of organization and 
planning and attention to detail is not present, not yet, in 
the rest of our response to September 11.
    I would suggest that we are just as ad hoc after September 
11, with respect to the other things we are doing, as we were 
before. We are doing good things in the Congress. We are 
providing substantial funds for victims, substantial money for 
damage repair. We have bailed out the airlines. We are looking 
at airline and airport security, steps to help displaced 
airport workers, steps to respond to anthrax attacks, but where 
is the plan? Where is the careful organization?
    Where is a national strategy that deals with many of the 
things we have just been talking about and many of the things 
you have mentioned--deals with what Senator Specter accurately 
described as the intelligence gaps, deals with what you said, 
Mr. Chairman, with this intolerable situation where agencies 
are unwilling to share information? Where is the national 
strategy that starts with the way we collect information, the 
way we analyze information, the way we disseminate intelligence 
information, the way we act on it and then the way we respond 
in the unfortunate event of a terrorist attack on our homeland? 
Where is the strategy?
    Last week in the House, Congressman Jim Gibbons from Nevada 
and I, both members of the House Intelligence Committee, and 
now joined by six more members of the House Intelligence 
Committee, introduced the bill we think is step one to deal 
with the need to formulate this national strategy. I would ask 
your permission to incorporate some formal remarks and remarks 
from Mr. Gibbons in your record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gibbons appears in the Appendix 
on page 133.
---------------------------------------------------------------------------
    Chairman Lieberman. Please.
    Ms. Harman. We believe our bill comes closest to what 
President Bush has tried to articulate in his executive order, 
which you mentioned that he released on Monday when he swore in 
Governor Ridge. That executive order cites the need to form an 
Office of Homeland Defense to detect, prepare for, prevent, 
protect against, respond to and recover from terrorist attacks 
against this Nation. The mission is challenging in its breadth 
and complexity. According to the executive order, Ridge's 
mission is to develop and coordinate the implementation of a 
comprehensive strategy, but he is not asked to develop that 
strategy.
    He is directed to advise OMB the appropriateness of other 
agencies' budget, but he is not given real budget authority. He 
is authorized to review plans and preparations for ensuring the 
continuity of government, to work with others, to ensure the 
adequacy, to encourage, to invite--wonderfully hopeful words, 
but where is the authority to get any of this done? Beyond his 
persuasive abilities and his close relationship to the 
President, Ridge has none of the tools required to force 
coordination of efforts or to win turf battles, and the turf 
battles have already begun.
    To overcome what I believe were the objections from cabinet 
secretaries, the President appointed himself, not Governor 
Ridge, to Chair the newly-created Homeland Security Council. 
Why did he do that? I would guess because Secretary X called up 
and said, ``I do not want Ridge to be senior to me, that is not 
fair. I have been here for 9 months; he is the new kid on the 
block. Do not do that.'' So the answer is, ``Don't worry, I 
won't do that, I will be chair.'' What does that say about 
Ridge and his tools?
    Jim Gibbons and I believe that the starting point of a real 
toolkit for Ridge is budget authority, not just the authority 
to certify budgets, that is what my good friends, Senator 
Graham and Senator Feinstein, have proposed, but the authority 
to reject budget requests that do not comply with the national 
strategy. That veto power is only in our bill and we would hope 
that you would consider that and add that to the package that 
you are going to pass here, because that veto power will be the 
tool that Ridge needs to implement a national strategy from the 
beginning of intelligence collection to the end of the first 
response effort. Absent that, as I mentioned, I think we are 
nowhere.
    The New York Times has said of Governor Ridge, ``The 
portfolio is enormous, but his authority is vague.'' The Wall 
Street Journal said, ``Ridge has little control over the 
counterterrorism budgets fueling concerns that he will lack the 
tools.'' The Washington Post has written, ``In any circle but 
those of the Federal cutthroats who guard their turf, Ridge's 
friendship with the Commander-in-Chief would be a boon, but the 
gladiators he is about to face devour czars.'' Ridge said 
himself at his swearing in just a few days ago, ``The only turf 
we should be worried about protecting is the turf we stand 
on.'' I agree.
    So, in conclusion, Mr. Chairman, I think we need to give 
this very able man at this very critical time the tools to do 
his job. That requires budget authority; that requires 
inclusion of our bill in any package that you report. Again, I 
appreciate being here, and I would just tell you that your 
leadership on this and so many issues like the energy problem, 
which California suffered under earlier this year, is so much 
appreciated by me and all of our California colleagues in the 
House. Thank you very much.
    Chairman Lieberman. Thanks, Congresswoman Harman, for your 
kind words and for a very strong statement. It is quite 
instructive, and maybe we will get to it with the second panel, 
to compare the language in the executive authority, executive 
order, creating Governor Ridge's office, on budget authority 
with your language on budget authority, which is very clearly 
stated and much stronger. So thank you. You made a real 
contribution today.
    Congressman Thornberry, thanks for your patience. I have 
found, as you were kind enough to say yesterday, from my side, 
my work on the Armed Services Committee particularly, I find 
over and over again as I am heading in a certain direction, I 
look up and there is Mac Thornberry heading in the same 
direction. I suppose this could mean we are both wrong, but 
nonetheless, I find your presence there quite reassuring, and I 
thank you for your leadership, and as we said yesterday, 
prescience in introducing this bill long before the tragic 
events of September 11. I look forward to your testimony now.

   TESTIMONY OF HON. MAC THORNBERRY,\1\ A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Thornberry. Thank you, Mr. Chairman and Senators. I 
appreciate your patience in wading through to listen to some of 
the witnesses. With your permission, Mr. Chairman, I would like 
to submit a statement I gave before the Government Reform 
Committee in April, primarily because while there is much more 
intense interest on this issue, I think the basic facts are the 
same. One of the basic facts is this government is poorly 
organized to protect and defend the country and to respond 
against major attacks on our homeland. In that statement, I 
list some of the studies that all come to that conclusion, all 
of which, of course, were done before September 11.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Thornberry appears in the 
Appendix on page 82.
---------------------------------------------------------------------------
    It occurs to me that the comments made by Senator Thompson 
and Senator Voinovich are exactly right. You have to have a 
number of things to make something work. Leadership is 
critical. Good people are essential. Cooperation can overcome a 
number of other problems, but organization is important, too. 
President Eisenhower is quoted as saying, ``The right system 
doesn't guarantee success, but the wrong system guarantees 
failure, because it sucks the leaders into the cracks and 
fissures as they seek to manage dysfunction, rather than make 
critical decisions.'' I do believe that is part of what we are 
dealing with here.
    As you have said, Mr. Chairman, my bill is also based on 
the Hart-Rudman recommendations. I think it is important for me 
to just--you will hear from some of them directly in a moment--
but I think it is important to remember that this commission, 
set up by President Clinton and former Speaker Gingrich, was 
not charged as an antiterrorism commission. Their charge was to 
determine what is the national security going to look like over 
the next 25 years? As they spent 3 years looking at this 
subject, they say the number one problem we have is homeland 
security. With the widest range of political philosophies 
imaginable on that commission, they come to a unanimous 
recommendation that the approach that we have taken is the 
right thing.
    I would just say, Mr. Chairman, that I do not believe 
anything in our legislation is inconsistent with the executive 
order that the President has already issued, and I am going to 
be a little different from some of my colleagues. Frankly, I 
think the President ought to be able to arrange his White House 
any way he wants to, and certainly, if you look at the 
executive order, Governor Ridge has a full plate before him as 
he seeks to coordinate everything from agriculture to 
transportation, and just about everything else that is in the 
government. But, as he is coordinating at the top of the 
bureaucracy, you have to think about how you are going to 
implement this coordinated policy that he comes up with.
    The analogy the White House has used is this is kind of 
like the National Security Council. Well, Condoleeza Rice 
coordinates a wide variety of policies, but then you have a 
Department of State and a Department of Defense to implement 
those policies. That is what I see our department as doing, not 
across the board, but in the area of Border Patrol, response 
and cyberterrorism, these are the folks that implement it. So 
it is down a level or so in the bureaucracy.
    Now we have these three border agencies that are clearly 
not a good fit with the departments where they reside. Maybe at 
some point Customs fit in the Department of the Treasury, where 
it was a major source of revenue, but now, if we agree that 
part of their primary responsibility is to make sure bad things 
do not come into the country, it needs to have a little bit of 
a different focus. So bringing them together, I think, would be 
helpful.
    The other thing is, however we rearrange these boxes in the 
bureaucracy, what counts is what happens on the ground, using 
the border as an example. Right now we have got Customs 
Service, Border Patrol, and the Coast Guard--they do not even 
use the same radios. They cannot talk to one another. They have 
different equipment. They have among them 11 different 
databases, none of which work with one another. Now, we could 
allow Governor Ridge to get in and to try to manage that 
dysfunction, or we can bring it together, coordinate it and let 
him worry about other critical decisions.
    I think that is a better fit, and it just really struck me 
over the past month how many of our colleagues, whether they 
have worked on the drug program or they have worked on the 
immigration problem, have come to the same conclusion on the 
border issue, that having these different agencies scattered 
around does not make much sense. The same could be argued for 
FEMA, the response folks. At a time where seconds could mean 
many, many lives, having that coordinated so we do not have to 
worry about whose phone number is the right one to call, but 
one phone number where action takes place, I think is better.
    Mr. Chairman, finally I would just like to say I think we 
should move quickly on this. It is always hard to reorganize 
the government. You are taking money and power away from 
somebody and giving it to somebody else. That steps on 
bureaucrats' toes. It steps on toes up here in the House and 
the Senate. But if there is ever a time to put parochialism 
aside, it seems to me that this is it, focusing on, not any 
magic answers, but some common-sense, prudent steps that can 
make us a little safer. I think we need to move on it. Thank 
you.
    Chairman Lieberman. Thanks very much for an excellent 
statement, and I share your sense of urgency. If we can figure 
out a way to work together, the spirit is here and the intent 
is here to get something done that would be supportive of the 
President and Governor Ridge as soon as possible. I also liked 
your formulation, and I do think it suggests that it is 
possible, in general terms, to take the approach that is 
represented here by Senator Graham and Congresswoman Harman, 
Congressman Gibbons and the one that we have, and meld them 
together, because they are two different functions. You are 
right. We are talking about an implementing group. I think 
theirs is much more an overall coordinating of all the 
counterterrorism efforts.
    Thanks to both of you very much. I wish you a good weekend 
and we look forward to working with you on this important 
matter.
    I would like to call the second panel. Again, I thank them 
for their patience. I think that our colleagues have been very 
constructive and helpful in their contributions this morning, 
members of the House and the Senate, and I thank them.
    This panel has the Hon. Lee Hamilton, now Director of the 
Woodrow Wilson International Center for Scholars, but, of 
course, our long-time friend and colleague in the House, a real 
leader on national security and foreign policy questions; the 
Hon. Barry McCaffrey, now President of B.R. McCaffrey and 
Associates, one of those czars who faced the gladiators and 
appears to be neither bloody nor--he is here and he looks 
strong and healthy--I want to thank General McCaffrey for 
rearranging a class he teaches at West Point to be here with 
us, because he brings a unique perspective that we appreciate; 
General Charles Boyd, now Senior Vice President and Washington 
Program Director of the Council on Foreign Relations; Dr. 
Steven Flynn, a Senior Fellow of National Security Studies at 
the Council on Foreign Relations; and Thomas Stanton, Chair of 
the Standing Panel on Executive Organization and Management of 
the National Academy of Public Administration. We really look 
forward to the testimony of this panel. I thank you all for 
your time and your contribution.
    Congressman Hamilton, welcome. It is great to see you 
again.

TESTIMONY OF HON. LEE H. HAMILTON,\1\ DIRECTOR, WOODROW WILSON 
               INTERNATIONAL CENTER FOR SCHOLARS

    Mr. Hamilton. Thank you, Mr. Chairman, and Members of the 
Committee. I am immensely pleased to be here. I want to commend 
you for trying to find ways to strengthen our homeland security 
across this great land. Americans are, for the first time in my 
recollection, worried about their personal security in their 
homes. So they are very, very anxious that you act 
appropriately, and I am delighted to see you tackling this 
problem seriously.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hamilton appears in the Appendix 
on page 87.
---------------------------------------------------------------------------
    The threshold question for me in dealing with this question 
of organization of the Federal Government to deal with 
terrorism is how serious of a threat to national security is 
terrorism? Senator Thompson said a moment ago, and I thought he 
was right on the mark, that we have not taken it seriously 
enough. In the view of the Hart-Rudman Commission, terrorism is 
the number one threat to the national security of the United 
States. If that is true, and we believe that unanimously--if it 
is true, then that has profound implications as to how the 
government should be organized and how the resources of the 
government should be allocated.
    You have already mentioned, Mr. Chairman, there are two 
basic schools of thought as to how you proceed, the czar model 
or the cabinet model. I am not sure there is a right or wrong 
way to do this. I think the President has made a significant 
step in the right direction with what he has done. I personally 
do not think it has gone far enough. My own view is this is an 
evolving matter in the government and in the Legislative 
Branch, as well. So he should be commended for the steps that 
he has taken.
    Senator Voinovich said a moment ago that the President 
deserves flexibility. He is exactly right about that, as well, 
and we should give him considerable leeway in setting up his 
own government. But, for me at least, although the President 
has improved the situation, I think you need to strengthen this 
organization. The key question is will the new government 
office or agency have the clout, the money and the staff to do 
what is necessary to protect our security? Will Governor Ridge 
be able to give orders to many disparate agencies involved in 
homeland security, many of which have a long history, as 
Senator Specter said a moment ago, of bureaucratic rivalry?
    I picked up the quote in the Congressional Quarterly--
perhaps some of you saw it--from Secretary of Defense Rumsfeld 
during his first tour of duty as Secretary of Defense. It is on 
page 2,309 of the Congressional Quarterly. He was involved in a 
suggestion that the Pentagon had, at that time, a debate over 
control of intelligence. This was his response, ``If they are 
in my budgets, I will run them.'' I think most of us would be 
sympathetic with Secretary Rumsfeld. If we were running the 
department and we had the budget, we would want to control it. 
This is precisely the problem that Governor Ridge is going to 
confront.
    ``If they are in my budget, I am going control it,'' and 
Governor Ridge is going to be sitting around that table with a 
lot of big hitters in this town--the head of the FBI, the head 
of the Defense Department, the head of the State Department, 
and he is not, as I understand it, going to have the kind of 
clout to get the job done, because they will come to the table 
and say, ``It is in my budget, I want to run it.'' Sooner or 
later--my guess is sooner--but, sooner or later he will be 
confronted with that problem under the present executive order 
status.
    The administration has emphasized that Governor Ridge will 
have access to the President and strong support from him. I do 
not doubt that, but it is not enough. There are dozens of 
people who have access to the President of the United States, 
and without a legislative framework providing budgetary 
authority and staff, his power will be uncertain and subject to 
the vagaries of future Presidents and their attention to 
homeland security. It looks to me like, as I understand it, 
Governor Ridge will have borrowed staff, uncertain power over 
department budgets, and have very little control over 
counterterrorism budgets of the more than 40 agencies that he 
is to oversee. He will lack the tools necessary to force those 
agencies to carry out his plans and work together.
    The question you have to ask yourself is how do you make 
this bureaucracy work. We all have our own judgments about 
that. We all know how difficult it is to move the Federal 
bureaucracy, and I think it can only be done with a person with 
a lot of clout, a lot of budget, and a lot of staff. So, I 
support the establishment of a Homeland Security Agency or 
Department.
    The head of that agency should be cabinet-level. That 
position is simply too important to depend upon a personal 
relationship with the President. It is too important to depend 
on the public's current mood with regard to terrorism or any 
other issue. It should be, as Senator Specter said, 
institutionalized, and he should have robust authority, as I 
think the Chairman said a moment ago, with budget and line 
authority. I have always been skeptical of interagency 
cooperation and coordination. I recognize that the government 
has to do a lot of its work in that process. In ordinary times 
it is done in that manner, but these are not ordinary times.
    The President has said we are at war and that the business 
of homeland security is a national priority. So the head of 
this agency must have power not just to advise and to 
coordinate. I think the Homeland Security Agency, following the 
recommendations of the Hart-Rudman Commission, should include 
FEMA, Coast Guard, Customs, and the Border Patrol. There will 
be others who will comment further on that.
    May I make two other points before I conclude? I notice in 
your bill, Mr. Chairman, you have a research component. That is 
very important and I commend that aspect of it. I know it is 
not widely discussed. The second point I want to say, with some 
fear and trepidation in my voice, and that is that the Congress 
of the United States is not very well organized to deal with 
terrorism.
    You have to get your own house in order. If Governor Ridge 
has to come up here and testify to between 20 or 30 committees 
of the House and the Senate, he is going to be spinning his 
wheels an awful lot of the time. You have got to work that out. 
My own view is that you need some kind of a select committee in 
probably both houses, the House and the Senate, to deal with 
it. It is not just a matter of the Executive Branch being 
reorganized to deal with terrorism. You had better look at your 
own house, as well.
    With those stern words, Mr. Chairman, I hope you will 
accept them in the proper spirit, and I am very pleased to be 
with you.
    Chairman Lieberman. Thanks very much, Congressman Hamilton. 
They were stern, but they were right on target and I doubt that 
you would have any disagreement here among the members about 
your last point, which is that we not only have to help 
reorganize the Executive Branch, we have to help reorganize 
ourselves to deal better with the problem of terrorism. Thank 
you.
    General McCaffrey, thanks again for being here.

 TESTIMONY OF GENERAL (RET.) BARRY R. McCAFFREY,\1\ PRESIDENT, 
                B.R. McCAFFREY ASSOCIATES, INC.

    General McCaffrey. Mr. Chairman, I wonder if I may request 
permission to enter into the record a statement that I have 
prepared.
---------------------------------------------------------------------------
    \1\ The prepared statement of General McCaffrey appears in the 
Appendix on page 92.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection, it will be printed 
in full in the record.
    General McCaffrey. Well, let me thank you, if I may, for 
the opportunity to share with you some of my own insights, 
based in particular on more than 5 years' experience dealing 
with the interagency process of confronting drug abuse in 
America. I have worked with many of you, to include your 
Ranking Minority Member, Senator Thompson, in successfully 
addressing those problems. Indeed, the Congress gave me 3 years 
of consideration and finally reauthorized ONDCP. I think I got 
probably 80 percent of what I wanted and ended up with an 
agency that was more responsive to the American people and the 
needs of the problem. So I offer that for you as a 
consideration.
    Let me also take special note that Rob Hausman, a young 
lawyer with Bracewell and Patterson, is here. He was loaned to 
me by his law firm. I am grateful. He was a strategic planner 
with me at ONDCP, a very bright and effective public servant--
and Major Jen Cook, my teaching associate, a military 
intelligence officer, Rhodes Scholar, and a terrific partner in 
my national security professor role at West Point.
    Let me, if I can, start by underscoring my own sense of 
admiration and confidence in the President of the United States 
and the team that he has assembled that has confronted this 
issue in the last several weeks. Unequivocally, I think 
listening last night and listening to the President and his 
address to both Houses of Congress, we were seeing leadership, 
simplicity of purpose, character and a sense of determination, 
which I think will serve us well. Indeed, many of these people 
in the administration, Secretary Powell, Secretary Rumsfeld, 
Paul Wolfwood, Steve Hadley, Dr. Rice and others, I have known 
and admired for years. I think the senior military team, Dick 
Meyers, Pete Pace and others, are as good as we could have 
produced. We are well-served by the public servants who will 
step forward and address this problem.
    Governor Ridge, known by reputation on watch-in-action--you 
could not go wrong having a Federal Prosecutor, a Congressman, 
a Governor and combat-infantry buck sergeant, decorated, to 
step forward and assume the responsibility. I would also 
underscore, if I could, General Wayne Downing, who has, 
fortunately, accepted the President's call to serve in the NSC 
and also to work with Governor Ridge as a counterterrorism 
adviser. I do not know of a person I have seen in the last 15 
years who knows more about that issue and is more of a battle-
hardened, tested and creative public servant than Wayne 
Downing.
    Let me talk about the problem, though. The problem as I 
look at it clearly goes back some 15 years, a period in which 
we watched with an out-of-body sense of detachment while this 
country accepted dozens killed or wounded, to hundreds killed 
or wounded, to thousands killed or wounded--the East Africa 
bombings were 6,054 casualties. During that period of time, it 
is my own assertion, while we had these brilliant studies and 
recommendations from people like the Hart-Rudman Commission or 
the Commission on Terrorism or other bodies that I have 
watched, we never took any significant positive or negative 
action against this threat. It was shameless the degree to 
which the political leadership, the military leadership, the 
media and the U.S. Congress ignored the problem.
    I say ignored it because I never really heard a determined 
debate in which there was disagreement with where we were 
going. There was instead an acceptance of the threat and then 
we walked away to go back to our business. Now we have got 
6,000 dead and we have got to do something about it, and we are 
in continuing peril. We ought to understand that. It is going 
to take us a year to 3 years, in my view, to reorganize 
domestic defenses. It will take us 6 months, to a couple of 
years, to adequately confront these terrorist base areas 
overseas and, more importantly, the states that sponsor them. 
During that period of time we should not misunderstand that we 
are in great danger.
    Governor Ridge's attempt to organize what I would primarily 
see as the domestic aspect of that problem is one that is 
vitally needed, and I applaud the President for identifying 
such a superb public servant and for giving him his initial 
authority. Nothing but good can come out of that.
    Let me, if I may, however, offer a notion that if you skim-
read the Presidential order that set up his effort, there is no 
mention of the Armed Forces. There is no adviser from the 
Chairman of the Joint Staff or the Armed Forces on this 
council. It is a coordinating, not a directing, authority. It 
does not mention missile defense, cyber warfare, counter-drug, 
economic warfare, information warfare, civil disturbances, 
national disasters, or any other aspect except a narrow 
definition of counterterrorism. There is no mention of 
coordination with Canada and Mexico in hemispheric security 
arrangements.
    He lacks budgetary authority. There will be no unity of 
effort in supporting exercises, training and directing the 
responsible use of monies in the current bureaucratic format. 
More importantly, it would be my own observation--I really echo 
the words of the first panel and certainly Congressman Lee 
Hamilton--that what it lacks is the force of law. We do not 
have power in the Federal Government unless you are established 
by legal statute.
    He is not charged with developing a national strategy, with 
articulating it. He has not been given budget certification 
authority or decertification authority. He has not been 
specifically identified as a policy coordination authority. 
There is no requirement to develop a performance measure-of-
effectiveness system. There is no requirement to say that in 1 
year you will have half of civil aviation with Federal Air 
Marshals and, in 18 months, complete it. There is no 
requirement on him to report to the Congress, the American 
people, and devise a format to say what it is that we are 
concerned about and we are holding you accountable for.
    There is no authority to call interagency meetings. He does 
not have his own staff and budget, it has been mentioned 
already. I would argue--Colin Powell, my mentor, used to say do 
not talk about your programs, talk about your budgets. So if he 
does not have the budget for his own TDY staff, if he does not 
have his own legislative liaison office, legal office and 
public affairs office, then he will have to borrow those 
authorities out of the White House, who are doing the Nation's 
business, not the problem of counterterrorism coordination.
    In sum, I would argue that notwithstanding this man's 
superb credentials, clear access to the Cabinet and to the 
senior leadership of Congress, within 1 year, with a small 
staff of detailees, with no Federal legislation, with no 
separate budget, no budget certification, he will be relegated 
to running the Speaker's Bureau on Counterterrorism Operations. 
I would argue that would not be what either the Congress or the 
President's wants.
    There are huge programs to be addressed--I will not go 
through them--secure our borders, get sensible immigration 
policies, strengthen domestic military capabilities. We have 
the wrong National Guard. We have a force capable of modestly-
trained, excellently-equipped, of fighting high-intensity 
combat operations in an international environment, armor, SP 
artillery, attack helicopters. We do not have a force in which 
54 State governors and territorial governors have an adequate 
chemical, biological, radiological, reconnaissance and 
decontamination ability, field hospitals, transportation units, 
and military police.
    We have the wrong National Guard and we are going to have 
to rethink it. We do not have adequate intel sharing on the 
homefront. There is no mechanism to work with the private 
sector right now; and then, finally, we lack an adequate 
Federal, State, and local coordination, particularly to respond 
to incidents involving weapons of mass destruction. We should 
not misunderstand that we will, in the coming decade, without 
question, face attempts by foreign terrorist organizations--
there are 31 identified by the State Department--to employ WMD 
threats against our civil population. It may well have happened 
already.
    On that note, let me, if I may say, I very much respect the 
leadership of Congress on this issue. Governor Ridge is not 
here to speak up for his own viewpoint and we do not have time 
to waste for him to discover the tools and come down here to 
ask for them.
    Thanks very much, Mr. Chairman and Members of your 
Committee.
    Chairman Lieberman. Thanks, General McCaffrey. I look 
forward to some questions and answers. I was just thinking as I 
was listening to you speak, we have a colleague here who last 
year in our national campaign rode what he called the Straight 
Talk Express. It seems to me that you have been riding it for 
many years now and you rode it right into the hearing today. 
Thank you.
    General Boyd.

 TESTIMONY OF GENERAL CHARLES G. BOYD, USAF (RET.),\1\ FORMER 
EXECUTIVE DIRECTOR OF THE U.S. COMMISSION ON NATIONAL SECURITY/
 21ST CENTURY AND CURRENT DIRECTOR OF THE WASHINGTON OFFICE OF 
                THE COUNCIL ON FOREIGN RELATIONS

    General Boyd. It is an honor for me, as well, to be here 
and offer my thoughts. I think the record should reflect that 
everything that Congressman Hamilton and General McCaffrey 
said, I would have said, had they not said it first.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Boyd appears in the Appendix 
on page 109.
---------------------------------------------------------------------------
    You have asked me to come here today, sir, to comment on 
these pieces of legislation, proposed legislation, before you, 
and I think it will come as no surprise to you that the 
Lieberman bill is one that I can endorse with enthusiasm. It 
strikes a remarkable resemblance to some work that I was 
involved in.
    Chairman Lieberman. On the Hart-Rudman Commission.
    General Boyd. At the Hart-Rudman Commission, indeed. Also, 
I have prepared a somewhat lengthy statement that I would ask 
that you include in the record. I will not read it for you 
today. Let me clarify a couple of things. I was heartened by 
your words and Senator Graham's words with respect to, perhaps, 
melding these two pieces of legislation in some form, because 
the Thornberry bill, the Lieberman bill, while it does exactly 
what I think it ought to do organizationally, it does not talk 
to the integration at the strategic level as much as I would 
prefer.
    I assume that the President moved quickly, and I think he 
did the right thing, to illuminate the problem, to get some 
supercoordinator active as quickly as he could and not have to 
take the delay to work out the political or bureaucratic 
problems involved in agency development. But I am heartened 
because you all are thinking very, very seriously about that--
the next step. I think General McCaffrey would agree with me, 
neither of us would like to go into combat--and this is a war--
with only coordinating authority over our component forces that 
we were required to fight.
    What troubles me, as well, about only the coordinating 
aspect of Governor Ridge's responsibilities--there seems to be 
a parallel organization between the National Security Council 
and the Homeland Security Council, as if homeland security 
somehow is a separate part, or not integrated into our overall 
national security framework. That is a new seam that is being 
introduced, and a problem in this mission area that is plagued 
with far too many seams already. What the Hart-Rudman 
Commission tried to emphasize was the importance of integrating 
homeland security into that overall framework of national 
security. To integrate it into the way we think about national 
security with its military, its diplomatic, and its economic 
components. It now should have a homeland security component.
    While it is implicit in your legislation by saying that 
this Secretary of Homeland Security would be a statutory 
adviser to the National Security Council, I think, if I were to 
do this again, I would have encouraged my commissioners to 
think about actually making the Secretary of Homeland Security 
a statutory member of the NSC, to give him the very kind of 
clout, authority and equality at the table that Congressman 
Hamilton argued for.
    Chairman Lieberman. Incidentally, excuse me, but, in fact, 
in response to a good suggestion from Senator Specter, our bill 
actually does that now. We make the Secretary of Homeland 
Security Agency a member of the National Security Council.
    General Boyd. Excellent, the variant that I have did not 
specify that, sir. So I stand corrected.
    Finally, I think I would say the two arguments that I have 
heard most recently for not moving in this direction are, that 
to do so, even though it might be a good idea, would be 
disruptive in time of crisis, and we would not want to do that. 
Mr. Chairman, I believe this is going to be a long and enduring 
conflict. I think if it were something we might hopefully 
conclude within the next few weeks, then perhaps waiting until 
after the crisis had ended would be appropriate. But if this is 
to be an enduring conflict, and I believe it is, then I can see 
no reason why we would not want to organize our efforts, 
marshal our resources, get our house in order as quickly as 
possible right now.
    The President--and this is the second piece--if he is 
worried about the politics involved or he is worried about the 
bureaucratics involved, then I think you all have a marvelous 
opportunity to give him a gift now and to tell him, ``Mr. 
President, in a bi-partisan way, we are going to give you the 
tools that you surely want, but did not ask for, we want and to 
show you that you will not have the kind of rancor or 
bureaucratic in fighting that you want to evade. We are going 
to give you a piece of legislation that gives you everything 
you need to do this critical task as well as possible, 
organizing the Executive Branch, and we, the U.S. Congress are 
standing behind you in a bi-partisan way.''
    One last, very brief thought, if I may; I was at the 
Congressional retreat at Green Briar last spring when that 
marvelous historian, David McCullough, gave the keynote 
address. He talked in terms of the nobility of purpose of this 
notion of representative democracy. He talked about Adams 
riding his horse 400 miles to cast his vote in support of those 
who sent him. He looked at the 140 Republicans and Democrats 
gathered there and respectfully suggested that they might do a 
little more to pull on the oars together toward common purpose. 
Then he said something that has stuck with me and I think will 
continue to: Nothing that has happened in history had to happen 
that way. It happened that way because people made choices and 
caused those things to happen that way.
    You have choices now and you can choose together to do what 
needs to be done or you can shirk that duty. I have great 
confidence, based upon this very hearing, if nothing else, that 
you all, on both sides of the aisle, are prepared to do what is 
necessary and right, and I commend you for it, sir.
    Chairman Lieberman. Thanks, General, for an excellent 
statement, and I appreciate what you said just before the 
conclusion, about the gift that we can present the President. I 
have had some good conversations with the Chief of Staff, the 
legislative office at the White House, and a brief conversation 
with Governor Ridge, and that is just the spirit in which I 
approach this, and they responded in kind. So I can hope we can 
keep those lines of communication open.
    Dr. Flynn, thanks for being here.

    TESTIMONY OF STEPHEN E. FLYNN,\1\ Ph.D., SENIOR FELLOW, 
    NATIONAL SECURITY STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Flynn. Thank you, Mr. Chairman. I am delighted to be 
here, as well. I am basically a border guy. The first part of 
my career, I served in the Coast Guard as a Coast Guard 
officer, commanding two cutters up and down our coast. Over the 
last decade I have been studying and writing about borders and, 
more recently, the asymmetric threat to our homeland. I have 
been doing this at the Brookings Institution, the University of 
Pennsylvania's Annenberg School, and, since 1999, at the 
Council on Foreign Relations. I think what I may bring to this 
is to talk a little bit about the problem that you are trying 
to organize this government to resolve.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Flynn appears in the Appendix on 
page 113.
---------------------------------------------------------------------------
    For the last 2 years, I have been making field visits 
across the border crossings on the U.S.-Canada Border and the 
U.S.-Mexico Border, and many of our Nation's major seaports and 
airports, overseas and megaports, like Hong Kong and Rotterdam. 
My research question has essentially been this: Given the 
cascading tides of people and goods moving across our national 
borders, how do we filter bad from good, the dangerous from the 
benign? The answer that I have arrived at is we do not, and 
given our current border management system, our architecture, 
we cannot.
    Let me be clear about this; this Nation presently has no 
credible way to reliably detect and intercept illegal and 
dangerous people and goods intent on entering this country. Our 
border management systems are broken. Let me provide you with 
just a few of the findings that I have made most recently, and 
back over the course of my career.
    At any given time there are literally thousands of 40-foot, 
multi-ton containers moving around this country, of which U.S. 
authorities have no clue about what is in them or a good bit 
about where they are from or where they are going. This is 
because the way we have developed our Customs inspection system 
is to inspect and examine at the final destination port. A 
large number of our containers arrive in Long Beach. They 
travel by rail to Chicago and go on to New York and Newark. 
That is the first time that a Customs agent is likely to pick 
up a piece of paper and say what have we got here; 2,800 miles 
into the heartland of America and you have 30 days to provide 
an itemized list of just what it is you are bringing beyond 
something that says FAK, freights all-kind.
    There is a terminal in Southern California in which 45 
percent of all the maritime crude shipments arrive each day, 
roughly 25 percent of the crude oil consumed by the entire 
State of California is off-loaded there. Today is the first 
anniversary of the attack on the U.S.S. Cole. If an attack like 
on the U.S.S. Cole took place against a tanker tied up to that 
pier right now, you would effectively shut down the economy in 
Southern California within about three or 4 days, because there 
is only 48 hours of refined fuel available to service the 
entire southern portion of California from Santa Monica to San 
Diego to the Rockies. There is no full-time uniformed police 
officers assigned to that port. That terminal is guarded by 
private security, rent-a-cops.
    Now, by statute, the U.S. Coast Guard, through its capital-
to-port function, is supposed to provide for port security, but 
after a decade of budgetary neglect, the Coast Guard, which is 
also tasked, by way with patrolling 95,000 miles of coastline, 
shoreline, has its ranks reduced to the lowest level since 1964 
and is routinely cannibalizing its decades-old cutters and 
aircraft for spare parts to keep them operational.
    In the 1990's, the Coast Guard did assemble six specially-
trained port security units that were funded by the Department 
of Defense, they were manned by reservists, and their mission 
is to go overseas and support the Navy as it does force 
projection. Another point, despite the fact that the Canadian 
security and intelligence services believe that there may be as 
many as 50 terrorist groups with a foothold in Montreal, 
Toronto and Vancouver, prior to September 11, the 4,000 mile 
border, land and water border with Canada, was patrolled by 330 
Border Patrol agents, supported by one analyst, with radios 
that they cannot use to communicate with local and State police 
authorities. What they do is they talk over their radio on 
their frequency, the state trooper will listen to his scanner, 
pick up what he said, talk over his radio and go back to the 
agents. That is the reality of the border with Canada, which 
again we have 50 terrorists--groups with terrorist affiliations 
operating within a stone's throw of this Nation's borders.
    In addition, U.S. trade with Canada climbed fourfold in 
1985, from just over $100 billion to $400 billion a year. U.S. 
Customs has 700 inspectors assigned to the northern border, 200 
less than it had 20 years ago. Routinely one-half of all the 
primary inspection stations along the northern border, from 
Washington to Maine, have no personnel assigned to those 
stations because of staff shortfalls from INS and from Customs.
    On the Southwest border, port directors communicate--I was 
just there in August--communicate with their Mexican 
counterparts by sending couriers to the center of the bridge, 
to have their counterpart send a courier to their side of the 
center of the bridge, in order to communicate with each other 
if there is a problem, because they have no secure 
communications to talk with one another. This is like 
Checkpoint Charlie, and this is how we are doing border 
management now in this Nation.
    The front-line agencies cannot even effectively communicate 
with each other. For example, let's imagine this scenario: A 
ship with a shadowy record of serving in the darkest corner of 
the maritime trade, its shipping agents notice that it will be 
importing a type of cargo that does not square with its home 
port or any of its recent ports-of-call; it is manned by crew 
members, some of which are on intelligence watch lists because 
they are suspected of having links with radical Islamic 
fundamentalist organizations; the ship is scheduled to arrive 
on the very same day that a tanker with a highly-volatile fuel 
is also arriving in the port. It would be reasonable for the 
American people to expect that we would detect and intercept 
that ship before something horrific happened. The odds of that 
happening right now are very, very small. Why? Because all 
those data points, all those red flags, would not be viewed 
simultaneously.
    The Coast Guard would know something about the ship, it 
would know something about the hazardous cargo coming in. 
Customs would receive some advance notice of cargo manifest 
information. If it was bulk, you would only receive it at the 
point of arrival itself. INS may or may not know much about the 
crew, depending on the kind of visas the sailors hold and the 
time with which the shipping agent faxes the crew list. In 
addition, none of the front-line inspectors in these agencies 
would likely have any access to the national security 
intelligence from FBI or CIA.
    All these agencies will have more people and cargo, and 
ships that spark their interest and concern than they have 
manpower to intercept and inspect. We have to ask questions. 
How did we end up in such a mess? It is certainly not this 
administration's fault and, to some extent, it is not the last 
administration's fault. This is an accumulated result of four 
things: An extraordinary 200-year run when we have not faced a 
serious attack on U.S. soil; a revolution in global 
transportation logistic networks which has simply overwhelmed 
the enforcement and regulator agents and supervisors; the 
statutory blindness of our national security community to the 
problem and an organizational, cultural bias away from it, 
because the writ only runs from the water's edge out; and a 
dysfunctional, byzantine governmental organizational structure 
that sprawls from front-line agencies who would see the 
problem, but are in so many departments--they all get a piece 
of the elephant--nobody can put it together.
    Their parent departments, the Congressional appropriators, 
the OMB reviewers, historically have had no real appreciation 
of the vital security role these agencies play. That being 
said, Houston, we have a problem. There is a poignant scene in 
Apollo 13 when the mission controller comes into the room with 
all the parts of an astronaut's suit and throws it on the table 
to all his collective staff and says, ``You are not going to 
leave here until you invent a way to make a new air filter.'' 
Well, Mr. Chairman, we need to repair our Nation's border-
filtering system and it is just as urgent and requires the same 
level of creativity and energy.
    We are not going to coordinate ourselves into repairing a 
problem like this. We are going to need to fix front-line 
agencies that are broken. We are going to need to change the 
way they are doing business. We are going to need to change the 
way the government supports their doing business, and it is 
going to cost money. We could outfit the agencies that have the 
equivalent of broomsticks to wage this war on terrorism. We 
need to provide them the technology and the analysts and the 
additional manpower to do these things right. They need to be 
able to fuse it. We need to herd these cats under one roof, 
that the President, this country and the American people can 
hold accountable for the homeland security of this great 
Nation.
    I would argue that this is the Nation's top priority. On 
Monday, after the World Trade Center attack, I stood at Ground 
Zero and saw a sight I hope never to see again. In that rubble, 
amongst the 5,000 other civilians lying there is the remains of 
Fred Marone, a colleague of mine. Fred was the Director of 
Public Safety and the Superintendent of Police for the Port 
Authority for New York and New Jersey. He was as decent and as 
committed of a public servant as this country has ever had. I 
feel a special obligation to raise my voice today, to give 
meaning to his tragic death.
    When I started my current study, it was as an academic 
interest; now it is a deeply personal one. For anyone in this 
town who feels that it is too painful to try to rearrange the 
Executive Branch and the Congressional oversight of this 
government to meet the demands of this mission, I would suggest 
required reading being the daily obituary list in the Metro 
section that is going to run for another year, that has the 
parents and the mothers and the sons and the daughters who 
perished that tragic day.
    Mr. Chairman, terrorists have declared war on this 
homeland. This Nation is extremely vulnerable to these kinds of 
attacks. For gosh sakes, we need to recognize that we have to 
fundamentally rethink and reorganize how we provide for the 
security of this Nation in this new and dangerous era.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Dr. Flynn, for your very 
powerful testimony, and I promise you, your words will continue 
to ring in my ears. Senator Levin could not stay longer and has 
asked just to make a few brief comments before we conclude this 
panel with Mr. Stanton.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman. I appreciate your 
letting me do that, and I thank our witnesses also for allowing 
this interruption with the good grace that I can see in their 
faces. Taking up from what Dr. Flynn just said so eloquently, 
we do need to fundamentally rethink the way we reorganize our 
homeland defenses, 40 agencies involved in this. We should do 
it without worrying about the politics or the bureaucratic toes 
that we step on. I happen to feel that is very accurate.
    My own feeling at this point is one of the major problems 
we have is that we have a huge amount of information that is 
not shared well, not coordinated well, not assessed well, not 
communicated well. We have people coming into this country who 
are on watch lists, who are fugitives who get in, who are not 
watched once they get in. We have student visas issued to 
people who are not students, who never show up at schools. We 
have an awful lot of work to do just to coordinate the mass of 
information which has already accumulated about people coming 
into this country. That is just one of the problems.
    It is amazing to me the shortfalls in that area, however, 
and one of the issues that I think we have to look at is which 
of the various structural approaches will best address that 
problem, and it may be putting it all under one roof, it may be 
some coordinated approach. But I happen to agree that we should 
do the right thing and not worry about the reaction on the part 
of the agencies. That is the least of my concerns. However, I 
do disagree with a couple of our witnesses on just small 
points.
    General McCaffrey, you said that we do not have the time to 
waste while Governor Ridge discovers the tools that he needs, 
and I disagree with that. We need to know what Governor Ridge 
thinks, and I think our Chairman has already indicated he will 
be meeting with the Committee.
    Chairman Lieberman. Yes.
    Senator Levin. I do not know if he will be meeting in a 
public session or how that will be done, but I think it is very 
important that we hear from Governor Ridge. He has all the 
qualifications which you all have talked about in terms of his 
background. In fact, I think, General, you mentioned some of 
those qualifications. So it is very important to me what he and 
the administration wants.
    General Boyd, you said that we ought to give the 
administration a gift, even though they are not asking for it. 
If it is a gift, we ought to give it to them, whether they ask 
for it or not, but we have to make sure that it is a gift 
indeed; and in order to get a full picture as to whether it is 
a gift, I think it is essential that we hear from this 
administration as to why it is that they do not want a new 
agency with all of the powers which have been described here, 
at least in one bill.
    We may want to do that anyway; and I am not saying we ought 
to just be governed by what they say, but we surely ought to at 
least hear from them, one way or another. I hope this 
administration is not afraid to take on their own 
bureaucracies. I do not believe for 1 minute that they are 
afraid to take on their own bureaucracies in the aftermath of 
these events, but we just have to make sure that what we do is 
a gift, not just to them, but more importantly to the American 
people. So I would just emphasize that one point, whichever 
approach is best is surely the one we are going to be for, but 
we do need to hear from the administration and from Governor 
Ridge on that point, one way or another, publicly, I hope, but 
privately if necessary. I do not know why it would be 
necessary. I think there is great determination and strength in 
this administration to do the job that needs to be done.
    I would ask, Mr. Chairman, that a statement of mine be 
inserted in the record at this point, and again I thank you for 
allowing this intervention.
    [The prepared statement of Senator Levin follows:]

                   OPENING STATEMENT OF SENATOR LEVIN
    The terrorist attack of September 11 has caused us to reevaluate 
from top to bottom how we go about our lives in the United States. One 
important element in that reevaluation is the organization of the 
Federal Government in handling our response to, and the prevention of, 
terrorism on our own soil. We need to have the most efficient and 
effective coordination of programs and agencies, and the existing lines 
of authority and responsibility may now be out of date. We have to 
identify areas of duplication and eliminate them; we have to determine 
the most effective means of management and implement them.
    Everyone seems to agree that, at present, we have a problem in 
terms of coordination. In a recently issued report that the Senate 
Armed Services Committee requested in the Defense Authorization bill 
last year, the General Accounting Office (GAO) noted that there are 40 
different agencies working on homeland security issues, with inadequate 
communication and coordination between these agencies. The GAO report 
calls for a single individual within the Office of the President--
appointed by the President and confirmed by the Senate--to provide 
overall coordination and leadership for Federal efforts to combat 
terrorism.
    In an effort to coordinate, the President has issued an executive 
order creating the Office of Homeland Security and the Homeland 
Security Council and has appointed Governor Tom Ridge to head it. 
Questions remain as to whether Governor Ridge has the necessary tools 
and authorities, the necessary power, to coordinate and control anti-
terrorism activities within the government.
    On the Armed Services Committee, we've been working to give the 
Department of Defense more tools and authority to address terrorism.

        <bullet> LIn 1999, we created the Emerging Threats 
        Subcommittee, which pushed the Department of Defense (DOD) to 
        improve their efforts in combating terrorism.

        <bullet> LIn this year's DOD Authorization Bill, we added 
        funding to the budget request specifically to combat terrorism 
        and broadened the utilization of $1.3 billion of requested 
        missile defense money so that it could be spent either on 
        missile defense or combating terrorism.

    Today's witnesses advocate different approaches to the government 
structure to organize the Federal Government's role in homeland 
defense. The key to deterrence is information--information effectively 
collected and coordinated within and among key agencies. We have major 
problems today in that key area. Several examples of this manifested 
themselves relative to the September 11 attacks:

        <bullet> LOne of the alleged hijackers of the plane that 
        crashed into the Pentagon apparently entered the country on a 
        student visa. We since learned that he never showed up at the 
        California school that had admitted him and that the school 
        never contacted the INS. Colleges are required to tell the INS 
        when a student drops out or graduates. Why doesn't the INS 
        routinely review the status of student visas? And would that 
        information, if it had been obtained by the INS, have been 
        shared with the FBI or local law enforcement? I doubt there is 
        a system for that to occur, but if it had it would have 
        apparently taken months for the INS to enter the data from the 
        manual reports that schools submit.

        <bullet> LNabil Al-Marabh, a fugitive from Canada, came into 
        the United States even though he had been named on the FBI's 
        ``watch list.'' Why didn't the Customs officials have access to 
        the FBI watch list? In addition, Michigan authorities told 
        reporters that Al-Marabh had used an Ontario driver's license 
        when he applied for a duplicate permit in Michigan. He later 
        obtained a commercial driver's license, allowing him to 
        transport hazardous materials in heavy trucks. In neither case, 
        apparently, did the state authorities know he was on the FBI 
        ``watch list.''

    Whatever proposal that will best clear up the problems we have with 
the coordination of information, overcome the duplication, and make 
existing programs effective is the proposal we should pursue. We must 
decide how to break through the barriers that inhibit the free flow of 
information. Would creating a new agency do this? Or would a new agency 
consolidating FEMA, the Customs Service, the Border Patrol and the 
Coast Guard into one agency actually give the head of the agency less 
power to deal with the other agencies? These are important questions 
that we need to address in these hearings.
    We can add millions of dollars to our budgets building defenses and 
manning defenses but until we have robust inter- and intra-agency 
communication, the fundamental problem will not be resolved. Sharing of 
information helps us to predict, prevent, and respond to terrorism. And 
importantly, we should give real consideration to how Governor Ridge 
feels that this Administration can best combat terrorism.

    Chairman Lieberman. Thank you, Senator Levin. Mr. Stanton.

  TESTIMONY OF THOMAS H. STANTON,\1\ CHAIR, STANDING PANEL ON 
  EXECUTIVE ORGANIZATION AND MANAGEMENT, NATIONAL ACADEMY OF 
                     PUBLIC ADMINISTRATION

    Mr. Stanton. Mr. Chairman, Members of the Committee, thank 
you very much. It is a real honor to be here, to contribute to 
this important discussion. If Dr. Flynn is a border guy, I 
guess I am a public administration guy. This statement is being 
submitted personally, but a number of other fellows at the 
National Academy of Public Administration have contributed to 
the testimony. We were asked to look at two bills, one of which 
would strengthen the current executive office----
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stanton with an attachment 
appears in the Appendix on page 118.
---------------------------------------------------------------------------
    Chairman Lieberman. Excuse me just a second. Lee, thanks so 
much for coming. I know you told us earlier you had to leave at 
noon, and obviously we understand. Thanks for your 
contribution.
    Mr. Hamilton. I apologize.
    Chairman Lieberman. Please go ahead.
    Mr. Stanton. We were asked to comment on two bills, one to 
strengthen the current office in the Executive Office of the 
President, give it statutory basis and some budgetary powers, 
and the other one to create a new cabinet department. In my 
testimony I would like to make five specific points. First of 
all, I agree with all the other witnesses who have said the 
President's prompt action has been an excellent and very much-
needed first step.
    Second, the enactment of legislation along the lines of S. 
1449 would help to strengthen the authority of the director and 
the office. The ability to review budgets of the relevant 
Federal agencies is very important, as we have heard, provided 
that we clarify the role of that office vis-a-vis the Office of 
Management and Budget. What we cannot afford here is yet 
another turf fight, as two agencies fight over budget matters. 
Inevitably, it goes up the line and we have to attract the 
attention of the President or Vice President, who have many 
more important things to do. We should clarify that issue very 
early.
    Third, it is very important to avoid mixing the goals of 
these two bills. In other words, it would be unwise to have a 
single person who was both the coordinator of 40-odd agencies, 
and State and local government activities, and also the head of 
a cabinet department, because that dual role inevitably will 
give rise to perceptions that person is favoring their own 
department at the expense of others. The coordinator has got to 
be separate so that appearance of impartiality does not arise, 
and so we avoid, again, unnecessary conflicts that will have to 
go up the line.
    Fourth, the complex issues surrounding creation of a new 
National Homeland Security Department need to be carefully 
assessed before we act. If you transfer operating functions 
from four existing agencies to a new department, this could 
well create more problems than it solves, and the threshold 
problem is one of composition. There are a large number of 
agencies with essential roles in border control and in response 
to terrorism, the FBI, the Consular Service of the State 
Department--we could go down the list--that are not included in 
this new department.
    On the other hand, there are a number of functions of these 
agencies, the four agencies, that will be transferred to the 
cabinet department that, in fact, have nothing to do with 
national security. The Coast Guard has a search-and-rescue 
mission, has an environmental mission, a high-seas fisheries 
mission. It has a variety of missions that have nothing to do 
with national security. S. 1449 is superior to the cabinet 
department because it retains the flexibility for senior policy 
makers either to include or exclude functions as we evolve our 
perceptions of the needs of homeland defense and try to decide 
what we want to do.
    Finally, the fifth point, if this Committee does ultimately 
favor creation of a department, it might be beneficial to use a 
vehicle of a reorganization act to propose that the President 
submit legislation to make that change, and then it would be 
incumbent upon the President to make the careful considerations 
of the trade-offs to maximize the benefits of a given 
reorganization and minimize the costs. This Committee, of 
course, is in an ideal position to enact such a reorganization 
act because of its jurisdiction over general reorganization 
matters.
    Mr. Chairman, I would respectfully ask that my written 
statement be added to the record, along with an attachment 
where a number of fellows of the national academy attempted a 
first draft at a general reorganization act that this Committee 
might want to consider in that regard. Again, Mr. Chairman, 
Members of the Committee, thank you very much for holding these 
hearings and for the opportunity to participate.
    Chairman Lieberman. Thanks, Mr. Stanton, to you and your 
colleagues, and all that material will be included in the 
record. We can do 10-minute rounds, since there are only four 
of us left standing, or sitting here.
    General McCaffrey, why don't we begin by asking you to tell 
some war stories from your time as a czar; in other words, 
about what experiences you had that leads you to advocate 
strong budgetary authority within this new Office of Homeland 
Security?
    General McCaffrey. Well, certainly, Mr. Chairman, I started 
with, to some extent, having to accept the responsibility to 
coordinate national drug policy with enormous personal standing 
in the Executive Branch and in Congress. I was believed to be 
non-partisan, to have some credentials in organizing people, 
machinery and efforts. The President was politically vulnerable 
and needed some cover. I knew all these key actors, so I came 
in with a lot of personal standing. Having said that, I 
inherited an agency which was 25 people or so, demoralized. The 
Shelby-Kerry amendment had defunded them. It had no legitimacy 
in Congress. It had no powers that had been used inside the 
Executive Branch.
    Chairman Lieberman. Did it have budget authority of any 
kind when you came in?
    General McCaffrey. It never used it, the power that had 
been granted. It had certification-decertification authority, 
but no one since 1988 had actually ever employed it.
    Chairman Lieberman. Meaning that relevant budgets would 
have to combine.
    General McCaffrey. In theory, the agency, which has been, 
of course, downsized from 180 ineffective people to 25 
ineffective people, had never used the power that was there, to 
order an agency or department to include or change its 
budgetary requirements in accordance with the national drug 
strategy. It was beyond belief.
    Chairman Lieberman. But what did you do about it?
    General McCaffrey. Well, the first thing I did was came to 
Congress and asked for a law, and said, ``Here is the way I see 
this agency.'' I also went to the President, the Chief of 
Staff, the OMB Director, did a back-of-the-envelope analysis, 
designed an agency with 154 people, with 40-some odd liaison 
officers, put down 10 warrants of authority that I demanded, 
got nine under the President's verbal OK, said, ``Trust us, 
we'll back you on this.''
    Then I came to Congress and said, ``I would like you to 
make this a law,'' and 3 years later, partially because I 
decertified the Secretary of Defense's budget----
    Chairman Lieberman. Tell us a little about that.
    General McCaffrey. It was like setting fire to a cathedral 
on Easter Sunday. I have never seen anything like it.
    Chairman Lieberman. Not a good thing to do.
    General McCaffrey. He was a superb public servant. I do not 
think he was personally involved in it. He felt betrayed. I had 
been getting kicked back from DOD. I looked at the counterdrug 
effort. DOD played a modest supporting role. It was a $1 
billion budget. If I tried to do that to Secretary Shalala in 
Health and Human Services, she would have killed me, but the 
board had come back, ``Tell McCaffrey to stop screwing around 
with our money or we will take all his money away.'' So we 
spent 1 weekend, we lined it all up, we notified the relevant 
Congressional committees, we notified the media, we notified 
everybody except the President of the United States and the 
Secretary of Defense, and then we released it and decertified 
the budget. Unbelievable--it stopped my----
    Chairman Lieberman. Briefly stated, why did you decertify? 
You did not think he was spending enough or giving you enough?
    General McCaffrey. He had $900 million in it. I wanted $1.1 
billion. I had different views of it. I could not get a serious 
dialogue. I could not share the interagency process. I was not 
believed to be a credible actor. The word was, ``Keep this up 
and we will take away all your money.'' In fact, one senior 
actor told me, ``We will kill you and no fingerprints will be 
on it.'' At the end of that exercise, from then on, I can 
assure you when I called a meeting on budgetary matters, people 
came to the meeting.
    I really think the key to much of this is you simply have 
to have a Federal law, Congress has got to tell you what to do. 
You have got to be a Senate-confirmed officer of government. 
You have to have your own budget. If you do not have a public 
affairs and legislative affairs and legal section, then that 
implies you must borrow these bureaucratic functions from the 
larger White House. I was an agency, as well as a member of the 
EOP. If you are going to do that, then you are never going to 
come see Congress, because you are never going to break through 
into the priority list for the national business, which is what 
the White House does.
    The bottom line is I look at the kind of authorities that 
the governor has been issued to do this. I think in the acute 
stage of this crisis he will do just fine. He is a larger 
public servant with all of his experience.
    Let me add, if I may, one other thought, and I bet Chuck 
Boyd would agree with it. One of the things that I know from 
being a 25-year-old combat leader, rifle company commander, is 
one of the major weaknesses of the American people is our 
inability to stay afraid very long. I tell people that I was a 
four-star general because I could remember fear for years on 
end, and I worry enormously about 1 year from now, if we have 
had 10 minor terrorist incidents, which have been disrupted by 
the incredibly effective FBI and local law enforcement, whether 
we are going to forget our sense of collective fear.
    We have got to change some large muscle movement problems, 
and I could not agree more with Dr. Flynn. Our Federal border 
control authority--I went down the four border States as the 
first act in government. We do not have the rule of law and 
order on the U.S. borders. It is fundamentally broken. If you 
put your finger on a map anywhere on that border and ask who is 
in charge of this effort, there is no Federal officer who is 
charged with integrating infrastructure, intelligence, 
communication and planning. There is no modality to coordinate 
across that border. If you ask sector commanders, ``Who is your 
Mexican counterpart? What is the fax number? What is the 
telephone number? When did you see him last? Show me the map 
that shows the other side of the border, the avenues of 
approach,'' none of it exists. It is outrageous.
    They resisted--I tried to double the Border Patrol and 
succeeded, from 3,000 to 9,000. The right answer, I told them, 
was 20,000, and they resisted that approach. The real answer, 
it seems to me, is 40,000 people.
    Chairman Lieberman. Amen. Part of what we have not talked 
about yet in this whole matter, and it is not for today, is 
that if we are really serious about Border Patrol, 
infrastructure protection, preparedness to respond to 
emergencies, it is going to cost us some money, because not 
only are we badly organized, or, in fact, disorganized, we are 
woefully underfunding the effort to protect us. Now that we 
have, unfortunately, experienced what we have on September 11, 
hopefully, we will act on it.
    Your point is a very powerful point and very provocative, 
General, because part of what we are all dealing with is--when 
we go home every weekend--is fear that we have not seen before, 
and there is a natural tendency to want to argue with it. Of 
course, that is not all bad, we want to reassure people, but 
there is a way in which the sustaining of fear will motivate us 
to be where we should be, to be at our best and to defend. So I 
am going to carry that with me.
    Dr. Flynn, how would you reorganize the border access and 
control agencies? I guess a subquestion to that is, how do you 
respond to the recommendation of the Hart-Rudman Commission, 
which is in our legislation, to put at least these three 
agencies, Border Patrol and Customs and Coast Guard, under one 
Secretary, to work more closely together?
    Mr. Flynn. Yes, Mr. Chairman. I think maybe I can talk 
directly to something Mr. Stanton had said about the 
challenge--is if you extract this piece out, assign to the 
homeland security mission other things that are not homeland 
security-related, there is a real problem here. Let me say that 
I do not think that is true, because it turns out that the 
capacity that these agencies can bring to the table is 
basically the ability to detect abhorrent activity; that is a 
way in which the asymmetric threat, the terrorist, is likely to 
come.
    That is, my day on a patrol boat--you go out there and you 
pick up a fisherman and you board him and you say, ``We are 
here to board to see if you are complying with all applicable 
Federal laws and regulations. Captain, I see you are fishing. 
What are you fishing for?''
    ``Well, I am doing some scalloping.''
    ``Oh, in 3,000 feet of water, that is quite a trick. It is 
a long way down to get those scallops off the bottom of the 
ocean.''
    What I had was the ability of a context. I could say this 
is different from what somebody--and I could spot somebody who 
was fishing in an area that there are not any fish. That is the 
same thing for the boating safety, the auxiliary people who are 
out there, on a day-to-day. They are the sensors out there who 
are going to detect the kind of way these terrorists behave, as 
we saw their behavior on September 11 trying to blend into the 
real estate here.
    The challenge is that these folks turn out to be the front-
line new national security agents. They are the likely people 
who detect and they are also going to be the first responders, 
but right now they are not equipped to do the day-to-day jobs, 
so they are not likely to be able to give us that extra edge. 
They are also not likely to be able to--they are not connected 
in any way to the national security establishment. So they do 
not even know what to really look for.
    Part of this is recognizing that the capacity of these 
agencies is largely their non-national security role that gives 
us a clue in how you deal with that. On specifically with 
putting them together, the number is 40 agencies to deal with--
well, the fact of the matter is, in terms of presence--again, 
those people have sensors, that is really a small number of 
them. It is the Border Patrol. It is INS. It is Customs. It is 
Coast Guard. A lot of these authorities are delegated to them 
to be on the lookout for more than they can possibly handle. So 
I think the notion of getting a critical mass together--they 
are the right players.
    As that scenario I laid out for you, the ship with the 
cargo with the people, you have got to at least connect those 
three dots, and those are now in three different places. If you 
could bring those three together, you have got this command of 
the most likely risk at least. We have those 11 databases that 
were mentioned earlier by Representative Thornberry--at least 
you would have them talking to each other and you would have 
somebody to stay in for that.
    The key is that each of these agencies have a problem in 
that they are embedded in a department that has a core mission, 
that Congress mandates them to do and to resource them to do, 
and when they are doing something related to national security, 
their appropriator and their OMB reviewer says, ``That is not 
my account,'' and Big Dig versus Coast Guard, port security. 
Our core thing is Big Dig, and so, inevitably you get this 
atrophying of capability. So I think bringing them together 
helps to bring that. You do not want to strip anything away 
from these. It will be the Customs officer's regulatory role 
that will give him the capacity to interact with that trade 
community and help that trade community--help them spot bad 
things.
    Chairman Lieberman. If I hear you correctly, bringing them 
together in a Homeland Security Agency, without subtracting at 
all from their other missions, will thereby make homeland 
security a priority?
    Mr. Flynn. You get a two-fer. You get them doing their 
jobs, better resources, because in doing that, if they are 
tethered to this--they are given the mission that while you are 
out there doing your job, you are also on the lookout for bad 
things happening and detecting and intercepting them. You get 
the best of all worlds, in my view. It is not an either/or.
    Chairman Lieberman. General Boyd, did you want to say 
something?
    General Boyd. No, I was just going to reinforce--and he has 
done it now--there is nothing those agencies have to stop doing 
as a result of being integrated into a Homeland Security 
Agency. They are going to continue to do all of the things that 
they now do, but they are going to do it with common purpose 
and they are going to be doing it for someone who controls the 
way they procure, the way they train, the way they exercise and 
the way they respond for the principal mission of homeland 
security.
    Chairman Lieberman. Thank you. My time is up, but Mr. 
Stanton, go ahead.
    Mr. Stanton. I guess what I am hearing is a real need, an 
urgent need for integration at the operational level, and we 
face a bit of a Hobson's Choice. The way I read the 
commission's report, because people were concerned with the 
problems and disruption that Senator Bennett talked about, in 
fact, these three agencies would be kept largely separate 
within the new department. And that is needed because it will 
take you a 1\1/2\ or 3 years, whatever, to get integration of 
cross-cutting responsibilities and concerns.
    My point is not that ultimately we may not want to do 
something like that. My point is that right now we do not have 
a full understanding of what we want to put into that mix and 
what we want to keep out, and that operational integration--
when you read the commission report, and my hat is off to the 
commission--this was way before September 11--they talked about 
priorities of border security that were languishing, budgets 
that were hopelessly inadequate. We are going to solve that 
problem with or without an organizational change. But we should 
wait to see what the real contours of this problem are; among 
other things, how is Congress going to organize itself?
    To a large extent, Executive Branch organization tends, for 
very good reason, to mirror what Capitol Hill does, and to 
figure out over some time what is it we want to put in, what is 
it we want to keep out, how do we maximize the benefits and 
minimize the downsides, which inevitably will be there?
    Chairman Lieberman. Thanks, Dr. Stanton. Senator Thompson.
    Senator Thompson. Thank you very much, Mr. Chairman; we 
have had some excellent testimony. It has been very helpful. 
Thank you all. Mr. Stanton, I think you are absolutely right in 
everything that you say. It occurs to me that we are not here 
because we have been told for a decade, at least, in very 
pointed terms, of the nature of the danger, the extent of it, 
all the things that Dr. Flynn so eloquently described. We have 
known, basically, all this stuff, for a long time. I mean, it 
has been on the public record, but that is not the reason we 
are here. We should have been here because of that, but we are 
not. We were not focused, and nobody took it seriously. It has 
not been a part of the national debate.
    We are here because of September 11. It causes me to think 
about fundamentally what we are about here. It seems to me that 
we are looking at reorganization, not because reorganization or 
changing the boxes or lines of responsibility in and of itself 
is going to make us safer, but because we can do some things 
that will create or facilitate or assist the leadership and 
accountability that we are going to have to have to make us 
safer. And that is what this is about. I think Senator Hart 
said that if his proposal--if the commission's proposal had 
been in place, we could not have avoided September 11.
    I think if the boxes had all been different, if we had any 
of these reorganization plans, it would not have been 
different. This means that until we take things seriously, 
until we have the right kind of leadership on both ends of 
Pennsylvania Avenue, till we have responsibility, so heads roll 
when things do not work, some measure, some way to measure 
whether or not we are making any progress, which we do not have 
in government at all, not much will change. In fact, this is 
just endemic of all of government. This is just much more 
serious than anything else. Lack of accountability and lack of 
leadership are issues we could have addressed at any time, but 
we did not do it. We have not taken it seriously.
    The leadership part, of course, is a political matter. It 
is up to the American people, who have got to demand better. Up 
until recently, most politicians believe that what is most on 
the minds of the American people is not national defense, 
national security and terrorism. All of these issues are 
certainly way down the list. But, on the side of 
accountability, perhaps we can do something better to make it 
more likely that if we have the leadership, we could be doing a 
better job and have some measures of success. We would be 
making progress.
    I think moving the boxes would not have made any 
difference. In the future, a year from now, we could basically 
lull ourselves back into the same kind of situation. Unless we 
have leadership and accountability and some way to measure 
where we are, we could face this problem again. So what can we 
do to help that? This is what I am looking at. I have no faith 
in any system of box reorganization or rearrangement, in and of 
itself. But if it can help in those underlying things that we 
have been lacking, clearly lacking, then it is worthwhile. So 
that does get to the issues that we have been talking about, in 
terms of reorganization, what would help and so forth. We 
focused in on the budget problem.
    I am not sure that I know what we are talking about when we 
talk about budget authority. General McCaffrey and any of you, 
does that mean decertification ability or is there more to it 
than that? As I see the executive order, it says the head of 
OHS--authorizes the head of OHS to review agency budgets and 
make recommendations to agency heads and to the director of the 
Office of Management and Budget regarding the levels and uses 
of funding for homeland security-related activities. Prior to 
the forwarding of the proposed annual budget submission to the 
President for transmittal to Congress, the head of OHS is to 
certify to the OMB Director the funding levels that he believes 
are necessary and appropriate for the homeland security-related 
activities of the Executive Branch. No further guidance in this 
regard is offered by the order. This is from CRS. So it sounds 
like he may have certification authority.
    General McCaffrey. I think the word ``review'' is a 
throwaway line. It means you do not have to go to the meeting. 
Now, in addition, I would say some of this is mechanical.
    Senator Thompson. Is it different than what you had?
    General McCaffrey. Senator, let me offer a thought, because 
I generally agree that problems are not solved by bureaucratic 
reorganizations, generally I would agree. Having said that, let 
me give you two models, and they really astonish me. Our 
military formations are set up so that, and I got this at the 
end of the Gulf War. I had a couple of reporters commenting on 
how splendidly my division had done, and therefore wasn't it me 
personally that must have accomplished these great things? You 
are missing the point. If I had dropped dead the day before the 
attack started, there were a dozen people who could have 
stepped in and made this thing work as well as I did, and the 
reason was we had an organizational dynamic, a training system, 
a set of authorities that were widely understood, that make the 
organization responsive to sensible direction.
    There are other organizational schemes in which they are 
not responsive, in which it is a trying-to-herd-cats-with-a-
broom, and I would argue the interagency process tends to be 
that way. It focuses on two or three problems; it does pretty 
good at addressing them. We are in an acute crisis stage now. I 
have no doubt in the coming 6 months the Congress and the 
administration will make a series of sensible decisions. But 
the border, for example, the fact that it is completely 
dysfunctional, that the Coast Guard is not in charge of 
coordinating the maritime flank security of the United States 
in Brownsville, Texas and in San Diego, and that when you go 
there, there are a dozen people with guns, badges and boats, 
and there is no integrating authority, these kinds of things 
need to get fixed.
    Senator Thompson. There is some real low-hanging fruit that 
we could obviously start with here. Again, I guess the question 
I have is whether or not, in trying to reach the goal we are 
trying to reach, in terms of facilitating the things that we 
need to have more of, in terms of accountability and measures, 
and to induce the leadership that we need, is it better for 
Congress to come with some compromise among all these proposals 
that we have? It will not be anything that we have seen without 
changes. It will be probably some compromise of various 
proposals.
    Or would it be better to say, ``Mr. President, you have got 
a lot of things on your plate and have a lot of people 
responsible to you, but there is nothing more important to this 
Nation than this, and you have the ultimate responsibility. We 
are going to give you the authority under the Reorganization 
Act to reorganize, then you come back to us. If we do not like 
it, we can turn it down, but you have the responsibility, you 
have the authority. You must come with the leadership. You must 
maintain that leadership, and you are going to be held 
accountable for this and whoever you choose to place in 
whatever position you choose to place them in.'' That is one 
approach. The other is coming up with probably and mesh of a 
new kind of reorganization, and pass that.
    The second part of the question--should we look at this 
thing more or less in two phases? Is there an answer possibly 
for the real short-term, and then an answer for the longer-
term? I think most of us assume that there is going to be an 
intensity about this for some time, but then there is going to 
be a long-term--forever--problem and need to address it; and 
possibly, as we look at these questions. Should we look at it 
in two phases? What should we do right now for the short-term? 
Should we give ourselves a little bit more time to look at it a 
little bit down the road?
    General McCaffrey. Senator, I think you are right on the 
notion. I mean, thank God the President stepped forward and got 
this superb public servant, Governor Ridge, and gave him some 
people and gave him a mission. So, we are moving forward as we 
are sitting here discussing the issue.
    There are two definitive options on the table; one is 
clustered around Senator Lieberman's notion, and others, 
forming a department, which actually is the right solution. The 
only concern I have with it is I think it will take you a year 
to think through the legislation or we will screw it up. When I 
say think through the legislation, it is not just writing a 28-
page document, it is making sure that document is compatible 
with the responsibilities of the Attorney General, the 
Secretary of Defense, the Secretary of Treasury and others. You 
cannot just do the one without the other or we will be in even 
worse gridlock.
    Having said that, in the shorter run, it seems to me in the 
next 30 days you should issue Governor Ridge a model. There are 
some that you can examine. One of them is ONDCP. You worked for 
3 years to find me many of the tools that I wanted. So it is 
there to be examined and seems to me--I will borrow Chuck 
Boyd's word--it would be a gift to Governor Ridge, which he has 
not come down here and asked for.
    The administration has come as far as they wanted to go for 
now. I would respectfully urge the Congress to think through 
this and give him an interim solution. Then a year from now, if 
you can chart out these other, more-definitive options, one of 
which I did not think would be possible in my lifetime, was 
unscrewing the U.S. border control system. That one deserves to 
be done, and I went to Senators and Congressman and Governors 
along those four border States and said that you people have 
lived here all your life. There is no border between the United 
States and Mexico. It is uncontrolled. It is unbelievable, the 
situation--two unions, four different departments of 
government, 700 people, different work rules. There is no high 
school, hospital or factory in America where there is not a 
person who is the integrator of that activity. That is not the 
case in our 32 border-crossing points into Mexico.
    You can fix these things, but it is going to require some 
real careful analysis, to make sure the Coast Guard, a giant 
armed service, one of the most professional organizations I 
have ever dealt with, with inadequate resources, obsolescent 
ships and aircraft and probably stuck in the wrong agency of 
government to boot--but thinking through what to do with that 
is going to require some real judgment.
    Senator Thompson. Mr. Chairman, I apologize. Could I get 
Mr. Stanton's comment on this?
    Chairman Lieberman. Sure.
    Mr. Stanton. Mr. Chairman, I would like to echo what 
General Mccaffrey just said, that the first step might be to 
strengthen the coordinating role of Governor Ridge through 
something similar to S. 1449, taking advantage of the ONDCP 
model, and possibly also accompanying that with an enactment of 
a general reorganization act, so that the infrastructure, the 
legal infrastructure, is in place, so that this Committee can 
come back at an appropriate time, whenever the Committee 
decides, and say to the executive, ``Now we think it is time to 
move. We think it is time to institutionalize and we would like 
to hear from you shortly under the parameters of the 
Reorganization Act.''
    Chairman Lieberman. Thank you. Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman, and I echo thank 
you to the panel. I have learned a great deal here and I think 
you have made an enormous contribution to our dialogue. I would 
like to just continue the dialogue for a minute, and, if I may, 
Mr. Chairman, go back to my opening comment about my experience 
with bringing together the Department of Transportation.
    Mr. Stanton, I wish you were right, in terms of the 
Executive Branch mirroring the Legislative Branch. I remember 
very clearly Bryce Harlow, who was the President's head of 
legislative liaison in the White House and probably the best 
individual ever to do that job in any administration. He goes 
all the way back to Franklin Roosevelt, did it for Eisenhower, 
finished his career in government doing it for Nixon. He called 
us all together--I was the head of Congressional liaison at 
DOT--and he called us all together and said, ``All right, now 
the first thing you do is get with your committee of 
authorization in the Congress,'' and that meant the guy at DOD 
went to Armed Services, the guy at Treasury went to Finance, 
and so on. I said, ``Bryce, highways are Public Works. Mass 
transit is Banking. The Coast Guard is Armed Services, Amtrak 
and the FAA are Commerce. I got five committees of 
jurisdiction.''
    It is still that way. Whoever represents the Department of 
Transportation to the Congress still has five committees of 
authorization and jurisdiction up here on Capitol Hill. So if I 
can do a bank-shot off of that, Mr. Chairman, please talk to 
Tom Daschle about this issue, in terms of how Congress is 
organized with respect to terrorism. I have had a conversation 
with him. I will not publicly say what came out of that, but 
you have more leverage with him than I do. Let me just put in 
that plug.
    Mr. Stanton, I identify with you, absolutely, out of my 
experience as to how long it is going to take. General 
McCaffrey, I think your year is very optimistic, and in the 
meantime the turf battles will become tighter rather than 
looser, and again--we are coming back to it--but one of the 
driving forces behind the creation of the Department of 
Transportation was the Coast Guard believing that if they could 
just get out from under the Treasury Department, that did not 
understand their mission, and into somebody that did, they 
would become the lead agency that would dominate the Department 
of Transportation. Now we are hearing that the Coast Guard has 
to get out of the Department of Transportation, that does not 
understand their mission.
    In the meantime, I think we may have more going for us with 
Governor Ridge than the testimony here has suggested. Let me 
give you three names--Harry Hopkins. Harry Hopkins had no 
budgetary authority, he had no cabinet position, he had no 
formal, structural place in the government, and he was probably 
Franklin Roosevelt's most powerful individual during the entire 
Second World War, because Roosevelt used him in that kind of 
capacity. When you heard that Harry Hopkins was going to come 
see you, wherever you were in the U.S. Government, you paid 
attention.
    The second name--again, personal experience--Pat Moynihan. 
When I was at the Department of Transportation, the most 
terrifying words that could come to us were that Pat Moynihan 
was going to come see us, because Pat Moynihan had been 
appointed by President Nixon as the coordinator--whatever the 
title was, that was not the word--of urban policy. If Moynihan 
was going to come over to the Department of Transportation and 
start looking at what we were doing with respect to cities and 
mass transit and highways, we were terrified that he was going 
to discover that we did not know what we were doing, and that 
he was going to tell somebody, and the somebody he was going to 
tell was the President of the United States, and bank-shot OMB.
    The people who really call the shots in the government all 
work for OMB. I found that out, once OMB decided, or once John 
Ehrlichman and some of the others around Nixon decided that 
they did not like John Volpe--John Volpe was a cabinet officer 
who went 2 years without ever speaking to the President of the 
United States, because they kept him walled-off, and he ended 
up being told what to do by a 28-year-old in OMB whose 
principal government activity has been as an advance man for 
Nixon in the campaign.
    Now, General McCaffrey, you are nodding. You are kind of 
identifying with this kind of experience.
    General McCaffrey. Except I was talking to my President.
    Senator Bennett. OK, you were talking to your President, 
but just being a cabinet officer does not always mean that you 
have all of the clout that the media assumes with a cabinet 
officer. Somebody in OMB who decides they are going to cut the 
knees out from you can almost always do that, unless you have 
the kind of clout that Pat Moynihan had. Now, when they bundled 
Pat Moynihan off to be Ambassador to the United Nations, all of 
that effort stopped in the Nixon Administration. He was never 
replaced, but that was a Presidential counselor, adviser, 
whatever, who made a significant difference.
    If somebody like that had focused Dr. Flynn on the border, 
the existing agencies in the box where they already are would 
immediately start standing tall and the money would start to 
flow, because OMB would decide that they have got to do this, 
because Governor Ridge or whoever it is carrying that kind of 
clout is telling us.
    Now, the third name, and this is one you probably will not 
recognize, Katie McGinty. Has anybody ever heard of Katie 
McGinty?
    Chairman Lieberman. Yes, we recognize that name.
    Senator Bennett. You recognize that name.
    Chairman Lieberman. Very fondly.
    Senator Bennett. Well, not quite so fondly.
    Chairman Lieberman. I had a feeling.
    Senator Bennett. Katie McGinty had a staff of 11 people in 
a funky little office off of Lafayette Park, but she dictated 
environmental policy to the Department of Interior. The reason 
I know it is because she created the monument in southern Utah 
that created an enormous firestorm, similar to what you are 
talking about, at least in Utah, about setting fire to a 
cathedral on Easter morning. She did it stealthily No one knew 
it. She was denying to me that she was doing it while it was 
going on. She sat in my office and said, ``No, Senator, there 
is no such thing.'' 24 hours later, the President announced it.
    Why did she have that kind of power? Because she carried 
Vice President Gore's torch on the environment, and as long as 
the Vice President was willing to say this is what is going to 
happen, she was the implementing officer. So I give you those 
three names, Harry Hopkins, Pat Moynihan and Katie McGinty, to 
demonstrate that it is not automatic to assume in a structural 
way that someone who does not have cabinet--does not have 
enormous clout to get things done.
    Now, I am convinced, as a result of this hearing, that we 
need to restructure in the Executive Branch something like what 
you are talking about here. But I am also convinced, Mr. 
Chairman, that what we need to do--and maybe we need to do 
nothing. Maybe it would happen--I would hope that it would 
happen automatically--but, given Governor Ridge's background, 
given his proximity to the President and given the visibility 
of this issue, he will be able to go in and shine the light on 
the border problem within existing structure. We need to pursue 
his capacity to do that immediately, and give him every support 
and strength we can out of the Congress, while at the same time 
taking the time to do the long-term fix right, rather than rush 
to judgment. Now, I have acted as a witness, but in the 30 
seconds or whatever remaining, I would appreciate your 
comments, disagreements, objections, observations and so on, 
from any of you.
    Yes, Dr. Flynn?
    Mr. Flynn. Senator, one of the key things--I agree--I am 
sort of struggling myself with trying to organize a new threat 
environment that we are trying to sort through. There is a 
problem with this organization, and the real problem we have 
right now is a bifurcation between national security, water's 
edge-out, and the notion of homeland security and homeland 
defense as water's edge-in, with a heavy emphasis on more 
consequence management, picking up the body parts in the event 
of an attack. What might get lost in that conceptualization is 
that what happened on September 11 is the divide between 
domestic and international was obliterated by how these 
terrorists operated. So we have capacity in that national 
security establishment that clearly has to come into the 
domestic round.
    Some of the usual suspects in the domestic round that are 
very good at what they do, do not have a framework to work 
from. How you do the cross-fertilization is key, and moving 
around boxes is not going to solve that entirely.
    Can we talk about critical infrastructure protection, for 
instance? You have got to talk about Canada. The pipeline from 
Alaska runs through Canada. The energy grid that feeds most of 
it runs through Canada. The natural gas compressors that feed 
most of the power plant is in Canada. The idea that you are 
going to put a line across Canada, who is part of NORAD, a part 
of our air defense system--we can work that out, but we still 
have problems working on the border. So the key here is that 
homeland insecurity will not be done at home. It will require 
pushing out Customs agents, pushing out the Coast Guard in 
order to be able to detect and intercept.
    How you structure this may, in fact, cause problems at the 
outset. If you have division of labor as, ``OK, Governor Ridge, 
you look inside and handle that and the National Security 
Council is going to take over the war over there,'' we miss 
what is key about this terrorist threat. It is that the 
fundamental goal is to cause economic and social disruption in 
order to weaken the power of this country and its fortitude and 
its willingness to stay open.
    Our disorganization has led these border agencies--as an 
immediate response to the threat of September 11--was to 
essentially impose a blockade on our economy to make us more 
secure. We did not just ground the aircraft. We closed, 
virtually, all the seaports and we closed the border with 
Mexico and Canada, effectively by shutting things down to a 
trickle, and every time we have a new threat, a new 
intelligence threat, we may do that again and again and again, 
and that is a major security priority. But it is falling 
through the cracks because we do not have ourselves structured 
to think about that new dimension of the problem.
    I do not know if this particular--given the timing, I would 
have loved to have this conversation, working on this issue, 
much before September 11, but clearly we need to have this 
conversation. I think the Congress has to debate it and 
deliberate it. It is a long struggle. We are going to live with 
terrorism. It is going to be like a flu. This manhunt right now 
in Afghanistan will hopefully take out some very nasty people, 
but this is like a flu. Every season, it is going to be a new 
virus. We have to organize this government to cope with this 
new reality. The 200-year run is done. We have got to live with 
the fact our adversaries are going to take the game here, not 
let us fight it over there.
    Mr. Stanton. Senator, I guess we need to do some action. We 
need to, I believe, strengthen Governor Ridge's hand in his 
current coordinating capacity. I hear, and I share what I hear, 
a certain concern that, if like the flu the season goes away 
for a while and we all relax, whether we are changing the 
boxes, in which case an OMB that is parsimonious could still 
stifle homeland security, or whether we do not change the 
boxes, we will have problems when the flu comes back. So I 
think what I hear is that we are all concerned with that 
problem, but again I would say it is not immediately clear that 
this particular organizational solution is the answer, compared 
to another one that we might come up with as we understand the 
contours better.
    Senator Bennett. Thank you, Mr. Chairman. Mr. Boyd.
    General Boyd. One additional thought, perhaps, and I 
certainly agree that powerful men, with superhuman effort and 
unique access to their President, can get lots done. But I am 
not sure why we would want to keep the boxes where they are, 
and therefore require that kind of superhuman effort.
    Senator Bennett. I am not suggesting that we do, long-term.
    General Boyd. Let me clarify one thing that I am sure 
Senator Rudman would want me to clarify the notion that 
changing the boxes around would not have stopped the attack on 
September 11 is true, but irrelevant. Had we reorganized these 
essential elements in the summer of 2001, shortly after the 
Commission made its recommentations, it probably would not have 
made much difference by September 11. But I think Senator 
Rudman would be very quick to point out to you, for reasons 
that Barry McCaffrey gave, relative to that military structure 
and its culture, and the common sense of purpose and mission, 
that had those boxes been rearranged for awhile, it would have 
made a significant difference in the way that this Nation 
secured its borders. So be careful about drawing conclusions 
about the short-term and thinking they apply to the long-term.
    In the short-term, it would not make much difference, but 
you have got to get started on a trip before you can complete 
the trip, and the sooner, it seems to me, that we get started, 
the better off we are. One last little thought; we formed the 
JCS in the early days of World War II very quickly, and that 
system, which then endured and was codified in law in 1947, the 
National Security Act of 1947, came together very quickly, 
because it was a time of crisis and a time of need. I think 
this reorganization, under a time of crisis, can take place a 
heck of a lot faster than our more pessimistic estimates would 
have it.
    Senator Bennett. Thank you.
    General McCaffrey. Perhaps I could make a quick comment.
    Chairman Lieberman. Sure. Please.
    General McCaffrey. Senator, I actually like the way you set 
that up. I do think it is going to take a year to think through 
this. I would not rush to judgment on moving huge elements of 
government, putting them in new departments and re-creating 
authorizations and the Appropriations Committee in Congress. 
You need to think through this, whether it is 3 months or a 
year, it is going to be something that has to be done very 
deliberately.
    At the same time, I would give the governor some simple 
leadership tools to employ. A leadership tool is, ``I am 
authorized by law, confirmed by the Senate. The Congress told 
me I am supposed to do five things.'' You wave it at people. 
You also say, ``I have to report to these guys twice a year, 
and they are going to tell me to report about the following. 
You had better cooperate, because I am going to go down there 
and lay out the data.'' Authority is to hire your own people 
and not end up--I do not want to sound like a cynical, 
experienced Washington lawyer.
    Senator Bennett. But you are.
    General McCaffrey. But otherwise you end up with the cats 
and dogs of Washington, with the Manchurian candidates sent 
over to spy on you, constrain you, etc. If you do not have your 
own budget, you cannot go TDY. Somebody rolled their eyes, 
apparently on TV, when they heard Governor Ridge had asked for 
a speechwriter and a press guy. That is his job, to communicate 
to the American people. How can he do it without a team? Then 
finally, it seems to me this issue is pretty complex. If you 
can hire Dr. Flynn, you are OK, but to understand some of these 
programs is going to take a good bit of time, and I would argue 
the Governor needs to bring in the best and the brightest in 
our land quickly, under his aegis, and put them in office, and 
you ought to confirm the top five people that work for him, so 
you understand who is about to move the levers of government 
here.
    Chairman Lieberman. In the last couple of weeks I have 
received probably 10 calls and letters from people who want to 
leave what they are doing and go to work for Governor Ridge. 
There is a real sense of national purpose, wanting to be of 
service, and I think, given the proper authority, he could 
really attract a first-rate group of people to work with them. 
This has been a wonderful hearing. I have one more question 
about something that has perplexed me, and I cannot resist the 
opportunity, though, because I think you all probably have got 
some thoughts about it.
    This goes to immigration and the INS. In the proposal from 
Hart-Rudman that we have put in our bill, we have taken the 
Border Patrol and put it in this Homeland Security Agency, but 
obviously there are so many questions about the way INS decides 
who can come in and who cannot that relate to this, and then 
they make it even more complicated. You probably read the same 
stuff I have. All 19 of these terrorists that were involved on 
September 11 were here on tourist and business visas obtained 
through consulates in their--not their countries, but countries 
from which they came, which, if I understand it correctly, is 
actually more under the State Department. So, as we are 
thinking about really trying to do something about homeland 
security, do you have any thoughts about whether we should 
reach into any other parts of INS and bring it into this 
Homeland Security Agency?
    General Boyd, do you want to start?
    General Boyd. Yes, sir. We made a deliberate choice, and 
our thinking at the time--not to include INS--and our thinking 
at the time was we would take the law-enforcement elements out 
and collect them under the Homeland Security Agency.
    Chairman Lieberman. That was more than Border Patrol.
    General Boyd. No; more than Border Patrol--just INS. So I 
think that was a mistake. That is a second-order thing, the 
INS, but it is also, as you have suggested, critical to the 
overall business of knowing who is coming in and keeping some 
kind of track of them. So that was a mistake. We made a 
mistake. We should have included--there are probably some other 
things we should have included, but remember, sir, we were 
trying to think of the minimum number of things to make this an 
effective organization without ruffling any more bureaucratic 
feathers than we had to, because it was a time of peace at the 
time we were putting this together. It is like the French 
finance minister, in talking of the art of taxation, likened it 
to the art of plucking as many feathers as possible with a 
minimum amount of hissing from the goose, and that is what we 
were trying to do. We were trying to get the maximum number of 
feathers we could into this thing with a minimum amount of 
hissing from the bureaucratic geese.
    Chairman Lieberman. Right. Dr. Flynn.
    Mr. Flynn. Yes, one of the key things we have to realize 
when we think about this border dimension of homeland security 
is we are not going to stop and examine our way to security. If 
you have to inspect everything, you see nothing. You just 
overwhelm the system, the volumes of people and goods that come 
through. So the key is going to be the ability to detect 
abnormal behavior in the system, and what we are talking about 
is people, cargo and conveyances; that is, vehicles, trucks and 
so forth--and vessels. So the notion of--I would be an advocate 
of putting the whole INS in, because, again, that is the 
people-dimension, and you have, obviously, a relationship with 
councils and so forth that are key.
    But what you fundamentally want to do to be able to get a 
handle on this problem, is you need to be able to find a way to 
do proof-of-identity and proof-of-legal purpose as far upstream 
as possible, and then maintain that integrity as it goes 
through, and the agencies are going to help you do that. Again, 
the terrorists of today are exploiting that system, as well as 
criminals and so forth. Our regulatory enforcement agencies, 
they have a vital national security role to play in this new 
threat environment. You have to push them upstream and those 
three components have to come together. So it is not hard. It 
is the people, it is the cargo, and it is the conveyances that 
we need to have a good picture of what is legitimate so we can 
facilitate that--because this economy will implode if we do 
not--and what is illegitimate.
    It seems to me that structure could be there, and they keep 
doing what they do precisely because that is what gives them 
the intelligence, that gives them the ability to ask questions 
around the regulatory authority, but they need that tether into 
that national security world to know what the heck they should 
be looking for, what is a terrorist in this mix and what is a 
threat in the mix.
    Chairman Lieberman. You and General McCaffrey both sort of 
offered a conceptual point of view on this, which is very 
important, which is that these folks working in these positions 
really now have to think of themselves in a totally different 
way, and we have to think of them differently, too, because 
they have now suddenly become--Customs agent, Coast Guard--
first line of defense for the Nation. That is a different 
vision than they have had, and the Border Patrol had a certain 
vision of itself, but I do not think in terms of real defense, 
more in terms of keeping people out who were not supposed to 
come in on the basis of our immigration laws.
    General did you have any response?
    General McCaffrey. Well, just one thought, if I could. 
First of all, INS does have a system called CIPRIS, which needs 
to be funded, to track people coming across that border. That 
is something Congress could look at. But, if I may, having 
looked at this system with almost bafflement year after year, 
the principal difficulty, in my judgment, is we do not have an 
agency that thinks they own the border legal responsibility. It 
should be the Border Patrol, a uniformed service, and every 
border crossing, every port of entry, the Border Patrol has 
infrastructure planning, is the host for a com system, the host 
for an intel system, etc, and that other government agencies 
are there to carry out their Federal mandate, but to do so as 
part of this receptacle run by a single agency, that is the 
problem.
    When you go to a border-crossing site, 500 people--it is 
slightly better now. There will be a separate intel system 
being run by Customs and INS. INS has the port. The Border 
Patrol starts left and right of it. It is unbelievable. They do 
not have an integrated facility, and it seems to me the Border 
Patrol ought to run that, and these other--Department of 
Agriculture plays a very important responsibility in these 
border-crossing sites. They ought to be there and there ought 
to be a chief of that crossing site that sets work schedules, 
etc. I have sat there with a U.S. Attorney and found a Border 
Patrol officer on one of our four areas where we--remember, 
Virgin Islands and Puerto Rico is another one--where a Border 
Patrol officer was talking about his own cross-border 
intelligence system that he was running, with plainclothes U.S. 
border officers who were unknown to the Border Patrolman, that 
he was grabbing new guys and putting them across the border 
with radio systems, and no one was aware of it, and the Customs 
Service was running their own inadequate, amateurish 
electrooptics surveillance systems.
    We have got to have an agency like Bundus Gunshutz or the 
Gendarmarie, which is charged with border security. There is no 
law that tells me if I drive up to our border with a truckload 
of guns and money, and I tell the Border Patrolman, ``I'm going 
into Mexico; get out of my way,'' there is really no law I am 
violating, leaving this country where I choose to do so. If I 
build a giant house up to the border with barn doors that open 
into Mexico, the Border Patrol may not come into my house. This 
does not make any sense. The Border Patrol has no authority 
inside a reservation that borders on Mexico or Canada. There is 
a separate Department of the Interior jurisdiction there. So we 
just have no coherence to how we try and establish the rule of 
law and order, in cooperation with foreign law-enforcement 
institutions, on the border.
    Chairman Lieberman. Mr. Stanton.
    Mr. Stanton. Mr. Chairman, your question basically shows 
how difficult it is to draw new organizational lines. On the 
one hand, if somebody is trying to fly a crop duster and do us 
a lot of damage, we do not care whether they get naturalized or 
not. On the other hand, as you stated with your question about 
the Consular Service, and Dr. Flynn is talking about in terms 
of the need for a forward defense of the border, we need to be 
controlling people's visas, what sort of people, goods, what is 
coming in across our borders, and we need to be doing it 
overseas, and that may require drawing different lines from the 
ones that have been suggested so far. So, again, my concern is 
one of caution, that we do not leap into a solution. On the 
other hand, I am not at all urging that we simply stop and do 
nothing, but we have got to think it through.
    It is almost the way the President addressed the issue of 
fighting these terrorists, that we have got to think it 
through. There are some subtle problems here. We have got to 
grapple with them, but there are things we can do in the 
immediate future.
    Chairman Lieberman. Thanks.
    Senator Thompson or Senator Bennett, any more questions? I 
want to thank the witnesses. This has been a very productive 
hearing. I have the feeling that we all came with some ideas 
and predispositions, and unlike a lot of hearings, where we 
make speeches and the witnesses testify and there is not too 
much of a connection often, I think we all listened, both to 
one another and to you, and part of that is the fact that you 
are a very, very strong group of witnesses who were not 
hesitant to tell us exactly what you think, and I think you 
have made our work more manageable. So I am going to think a 
lot about what was said here, and I look forward to working 
with my colleagues to do the best that we can to set up a 
structure, in the short-run and the long-run, that protects the 
American people.
    The record will remain open for additional statements and 
questions. Senator Feinstein asked me to admit a statement of 
hers to the record,\1\ and Senator Carnahan has done the 
same.\2\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Feinstein appears in the 
Appendix on page 130.
    \2\ The prepared opening statements of Senators Carnahan and 
Bunning appear in the Appendix on page 55.
---------------------------------------------------------------------------
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 1:02 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


             PREPARED OPENING STATEMENT OF SENATOR CARNAHAN

    Several weeks ago, a distinguished panel sat before this Committee 
and discussed the recommendations of the Hart-Rudman and the Gilmore 
Commissions. I was struck by the similarities between the two 
commissions' recommendations on what our priorities should be.
    The reports agreed on three points:

        <bullet> Lthere is an increasing variety of possible threats to 
        our homeland;
        <bullet> Lthe country does not have a clear strategy to prevent 
        these attacks;
        <bullet> Land the responsibility for homeland security is 
        spread across too many agencies without adequate coordination.

    Both reports called for a new, more coordinated prevention and 
protection strategy. The events of September 11 proved we can no longer 
afford to ignore this urgent need. We must move forward expeditiously.
    I applaud President Bush for appointing Governor Ridge as Director 
of Homeland Security. But it was only the first step. This new post 
needs statutory authority that clearly defines its powers and 
responsibilities.
    When it comes to the Office of Homeland Security, several issues 
must be addressed: accountability, coordination, and resources.
    This new office will be charged with overseeing matters that 
already fall within other agencies' jurisdictions. Without statutory 
authority, holding our so many agencies accountable for their 
performance will be inherently difficult.
    This Committee will play a major role in providing oversight over 
the new Office of Homeland Security. But how will Governor Ridge 
provide oversight of the other Federal agencies responsible for 
domestic terrorism? How will cooperation among these agencies be 
enhanced?
    Furthermore, responsibility for homeland security does not only 
rest with the Federal Government. It will require effective 
coordination of all levels of government. State and local governments 
are important partners in both preventing and responding to attacks on 
our homeland. How will this new office coordinate with state and local 
governments to maximize our national response capabilities? How will 
the Federal Government coordinate with local first responders--who are 
at the forefront of our defense against domestic terrorism? 
    I hope that we will use this hearing to begin answering these 
questions. There are several legislative options currently available to 
us. And I look forward to working with my colleagues on this Committee 
to ensure that the Federal Government is organized properly to protect 
our homeland.

                               __________

             PREPARED OPENING STATEMENT OF SENATOR BUNNING

    Thank you, Mr. Chairman.
    This is the second hearing the Committee has held on homeland 
security this year, and I am looking forward to hearing from our guests 
testifying today. Thank you for being here.
    The attack on America was just a little over a month ago. During 
that time, Congress, the President and the nation have taken many steps 
to increase our national security, including putting police departments 
on high alert, making changes to our aviation security, and providing 
additional protection at our ball parks and many public places.
    And, let's not forget, however, that one of the most important 
steps we have taken is sending our troops overseas to combat terrorism 
at its root. We owe a tremendous debt to these men and women willing to 
fight on the front lines for us.
    Today, this Committee is going to look at the different legislative 
options currently on the table dealing with a Homeland Security Office.
    While we all agree that we need to shore up our homeland security, 
the solutions offered are numerous.
    There is more than one way to skin a cat, or to staff a government 
office.
    Some would create a separate Federal department, while others would 
establish an Executive Branch office. Some have also suggested that a 
combination of these two would be best. We have a lot of issues to 
consider.
    However, it is important to note that President Bush has already 
established the Homeland Security Office, along with the new Homeland 
Security Council.
    Personally, I think that substance is more important than style, 
and I hope that any legislative proposal that moves forward in Congress 
would be done in close consultation with the White House.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T6806.001
    
    [GRAPHIC] [TIFF OMITTED] T6806.002
    
    [GRAPHIC] [TIFF OMITTED] T6806.003
    
    [GRAPHIC] [TIFF OMITTED] T6806.004
    
    [GRAPHIC] [TIFF OMITTED] T6806.005
    
    [GRAPHIC] [TIFF OMITTED] T6806.006
    
    [GRAPHIC] [TIFF OMITTED] T6806.007
    
    [GRAPHIC] [TIFF OMITTED] T6806.008
    
    [GRAPHIC] [TIFF OMITTED] T6806.009
    
    [GRAPHIC] [TIFF OMITTED] T6806.010
    
    [GRAPHIC] [TIFF OMITTED] T6806.011
    
    [GRAPHIC] [TIFF OMITTED] T6806.012
    
    [GRAPHIC] [TIFF OMITTED] T6806.013
    
    [GRAPHIC] [TIFF OMITTED] T6806.014
    
    [GRAPHIC] [TIFF OMITTED] T6806.015
    
    [GRAPHIC] [TIFF OMITTED] T6806.016
    
    [GRAPHIC] [TIFF OMITTED] T6806.017
    
    [GRAPHIC] [TIFF OMITTED] T6806.018
    
    [GRAPHIC] [TIFF OMITTED] T6806.019
    
    [GRAPHIC] [TIFF OMITTED] T6806.020
    
    [GRAPHIC] [TIFF OMITTED] T6806.021
    
    [GRAPHIC] [TIFF OMITTED] T6806.022
    
    [GRAPHIC] [TIFF OMITTED] T6806.023
    
    [GRAPHIC] [TIFF OMITTED] T6806.024
    
    [GRAPHIC] [TIFF OMITTED] T6806.025
    
    [GRAPHIC] [TIFF OMITTED] T6806.026
    
    [GRAPHIC] [TIFF OMITTED] T6806.027
    
    [GRAPHIC] [TIFF OMITTED] T6806.028
    
    [GRAPHIC] [TIFF OMITTED] T6806.029
    
    [GRAPHIC] [TIFF OMITTED] T6806.030
    
    [GRAPHIC] [TIFF OMITTED] T6806.031
    
    [GRAPHIC] [TIFF OMITTED] T6806.032
    
    [GRAPHIC] [TIFF OMITTED] T6806.033
    
    [GRAPHIC] [TIFF OMITTED] T6806.034
    
    [GRAPHIC] [TIFF OMITTED] T6806.035
    
    [GRAPHIC] [TIFF OMITTED] T6806.036
    
    [GRAPHIC] [TIFF OMITTED] T6806.037
    
    [GRAPHIC] [TIFF OMITTED] T6806.038
    
    [GRAPHIC] [TIFF OMITTED] T6806.039
    
    [GRAPHIC] [TIFF OMITTED] T6806.040
    
    [GRAPHIC] [TIFF OMITTED] T6806.041
    
    [GRAPHIC] [TIFF OMITTED] T6806.042
    
    [GRAPHIC] [TIFF OMITTED] T6806.043
    
    [GRAPHIC] [TIFF OMITTED] T6806.044
    
    [GRAPHIC] [TIFF OMITTED] T6806.045
    
    [GRAPHIC] [TIFF OMITTED] T6806.046
    
    [GRAPHIC] [TIFF OMITTED] T6806.047
    
    [GRAPHIC] [TIFF OMITTED] T6806.048
    
    [GRAPHIC] [TIFF OMITTED] T6806.049
    
    [GRAPHIC] [TIFF OMITTED] T6806.050
    
    [GRAPHIC] [TIFF OMITTED] T6806.051
    
    [GRAPHIC] [TIFF OMITTED] T6806.052
    
    [GRAPHIC] [TIFF OMITTED] T6806.053
    
    [GRAPHIC] [TIFF OMITTED] T6806.054
    
    [GRAPHIC] [TIFF OMITTED] T6806.055
    
    [GRAPHIC] [TIFF OMITTED] T6806.056
    
    [GRAPHIC] [TIFF OMITTED] T6806.057
    
    [GRAPHIC] [TIFF OMITTED] T6806.058
    
    [GRAPHIC] [TIFF OMITTED] T6806.059
    
    [GRAPHIC] [TIFF OMITTED] T6806.060
    
    [GRAPHIC] [TIFF OMITTED] T6806.061
    
    [GRAPHIC] [TIFF OMITTED] T6806.062
    
    [GRAPHIC] [TIFF OMITTED] T6806.063
    
    [GRAPHIC] [TIFF OMITTED] T6806.064
    
    [GRAPHIC] [TIFF OMITTED] T6806.065
    
    [GRAPHIC] [TIFF OMITTED] T6806.066
    
    [GRAPHIC] [TIFF OMITTED] T6806.067
    
    [GRAPHIC] [TIFF OMITTED] T6806.068
    
    [GRAPHIC] [TIFF OMITTED] T6806.069
    
    [GRAPHIC] [TIFF OMITTED] T6806.070
    
    [GRAPHIC] [TIFF OMITTED] T6806.071
    
    [GRAPHIC] [TIFF OMITTED] T6806.072
    
    [GRAPHIC] [TIFF OMITTED] T6806.073
    
    [GRAPHIC] [TIFF OMITTED] T6806.074
    
    [GRAPHIC] [TIFF OMITTED] T6806.075
    
    [GRAPHIC] [TIFF OMITTED] T6806.076
    
    [GRAPHIC] [TIFF OMITTED] T6806.077
    
    [GRAPHIC] [TIFF OMITTED] T6806.078
    
    [GRAPHIC] [TIFF OMITTED] T6806.079
    
    [GRAPHIC] [TIFF OMITTED] T6806.080
    
    [GRAPHIC] [TIFF OMITTED] T6806.081
    
    [GRAPHIC] [TIFF OMITTED] T6806.082
    
    [GRAPHIC] [TIFF OMITTED] T6806.083
    
    [GRAPHIC] [TIFF OMITTED] T6806.084
    
    [GRAPHIC] [TIFF OMITTED] T6806.085
    
    [GRAPHIC] [TIFF OMITTED] T6806.086
    
    [GRAPHIC] [TIFF OMITTED] T6806.087
    
    [GRAPHIC] [TIFF OMITTED] T6806.088
    
    [GRAPHIC] [TIFF OMITTED] T6806.089
    
    [GRAPHIC] [TIFF OMITTED] T6806.090
    
    [GRAPHIC] [TIFF OMITTED] T6806.091
    
    [GRAPHIC] [TIFF OMITTED] T6806.092
    
    [GRAPHIC] [TIFF OMITTED] T6806.093
    
    [GRAPHIC] [TIFF OMITTED] T6806.094
    
    [GRAPHIC] [TIFF OMITTED] T6806.095
    
    [GRAPHIC] [TIFF OMITTED] T6806.096
    
    [GRAPHIC] [TIFF OMITTED] T6806.097
    

</pre></body></html>
